  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

COI                   Critical Operational Issue
COMOPTEVFOR           Commander, Operational Test and Evaluation Force
DOT&E                 Director, Operational Test and Evaluation
LRIP                  Low-Rate Initial Production
ORD                   Operational Requirements Document
OSD                   Office of the Secretary of Defense
TEMP                  Test and Evaluation Master Plan
          Office of the Inspector General of the Department of Defense
Report No. D-2003-105                                                       June 20, 2003
   Project No. D2001AE-0123

      Management of Developmental and Operational Test Waivers
                        for Defense Systems

                                 Executive Summary

Who Should Read This Report and Why? Policy makers, milestone decision makers,
and testers for Defense systems should be interested in this report because it discusses the
importance of addressing critical operational issues before a weapon system enters
production and the need for consistent and updated waiver-and-limitation terminology and
procedures.

Background. This audit was conducted based on concerns that the Director, Operational
Test and Evaluation expressed in his “Operational Test and Evaluation Annual Report,
FY 2000,” February 2001. Specifically, the Director expressed concern about programs
beginning operational test and evaluation without completing sufficient developmental
test and evaluation and about the Navy’s use of test waivers.

Results. The independent operational test and evaluation organizations within the
Military Departments were not able to fully resolve critical operational issues for weapon
systems during initial operational test and evaluation. Consequently, weapon systems that
were not fully ready continued into production before critical operational issues were
resolved, creating a potential need for costly retrofit of fielded units and an initial
operational performance that may be less than required to defeat the expected threat. In
addition, the Military Departments applied inconsistent waiver-and-limitation terminology
and procedures when referring to the deferral of testing. Although the Military
Departments have policies and procedures for waivers, only the Navy processed waivers
to defer testing of operational requirements. Conversely, the Army and the Air Force
cited test limitations to defer testing of operational requirements. Without consistent and
updated waiver-and-limitation terminology and procedures for deferral of testing, the
Military Departments’ use of test waivers is inconsistent with Office of the Secretary of
Defense policy and affects the milestone decision makers’ ability to make fully informed
decisions before systems enter low-rate initial production and full-rate production.
Requiring the Military Departments to assess operational performance requirements as
unattained in test reports when test waivers prevent a complete evaluation of operational
requirements, requiring program managers to resolve critical operational issues before
approval of system full-rate production, and establishing consistent guidance for test
waivers or deferrals should bring the oversight and improvements needed to those issues.
See the Finding section of the report for the detailed recommendations.

Management Comments and Audit Response. We received comments from the
Director, Operational Test and Evaluation; the Deputy Under Secretary of the Army
(Operations Research) (the Deputy Under Secretary); the Deputy Assistant Secretary of
the Navy (Research, Development, Test and Evaluation) (the Deputy Assistant Secretary);
and the Director, Air Force Test and Evaluation; however, we did not receive comments
from the Under Secretary of Defense for Acquisition, Technology, and Logistics.
The Director, Operational Test and Evaluation did not comment on the recommendation
concerning the Military Departments’ assessments of operational performance
requirements; however, he partially concurred with having program managers resolve
critical operational issues before approving systems for full-rate production. Further, he
agreed with establishing consistent guidance for processing test waivers or deferrals.

The Deputy Under Secretary concurred with the recommendations concerning the Military
Departments’ assessments of operational performance requirements and the program
managers resolving critical operational issues before approving systems for full-rate
production, but he nonconcurred with establishing consistent guidance for processing test
waivers or deferrals; however, he suggested a corrective action that met the intent of the
recommendation.

The Deputy Assistant Secretary and the Director, Air Force Test and Evaluation
nonconcurred with the recommendations concerning the Military Departments’
assessments of operational performance requirements and the program managers resolving
critical operational issues before approval of system for full-rate production. Further, they
both nonconcurred with establishing consistent guidance for processing test waivers or
deferrals. In addition, the Deputy Assistant Secretary stated that his comments contained
information considered privileged in litigation, primarily under the deliberative process
privilege and, therefore, was exempt from mandatory disclosure under the Freedom of
Information Act. See the Finding section of the report for a discussion of the
management comments and the Management Comments section of the report for the
complete text of the comments.

In response to the comments by the Deputy Under Secretary of the Army (Operations
Research) and to obtain succinct and attainable corrective action, we revised and
redirected the recommendation to establish consistent guidance for processing test waivers
or deferrals. Therefore, we request that the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the Director, Operational Test and Evaluation; the Deputy
Under Secretary of the Army (Operations Research); the Assistant Secretary of the Navy
(Research, Development, and Acquisition); and the Director, Air Force Test and
Evaluation comment on the revised recommendation. In addition, we request that the
Under Secretary of Defense for Acquisition, Technology, and Logistics provide comments
on the recommendations concerning the Military Departments’ assessments of operational
performance requirements and the program managers resolving critical operational issues
before approving systems for full-rate production. We also request that the Director,
Operational Test and Evaluation provide comments on the recommendation concerning
the Military Departments’ assessments of operational performance requirements. The
comments on this report should be provided by August 19, 2003.




                                             ii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   2

Findings
     A. Meeting Operational Requirements                                     3
     B. Waiver Policies and Procedures                                      17

Appendixes
     A. Scope and Methodology                                               24
           Management Control Program Review                                25
           Prior Coverage                                                   26
     B. Glossary                                                            27
     C. Test and Evaluation Policy                                          31
     D. Description of Major Defense Systems Reviewed                       35
     E. Critical Operational Issues not Resolved Because of Approved Test
           Waivers or Test Limitations                                      38
     F. Audit Response to the Director, Operational Test and Evaluation’s
           Comments on the Report                                           51
     G. Audit Response to Army Comments on the Report                       52
     H. Audit Response to Navy Comments on the Report                       58
     I. Audit Response to Air Force Comments on the Report                  69
     J. Report Distribution                                                 87

Management Comments
     Director, Operational Test and Evaluation                               89
     Department of the Army                                                  91
     Department of the Navy                                                  96
     Department of the Air Force                                            111
Background
    This report discusses the overall management of waivers of developmental and
    operational test requirements for Defense systems. We conducted the audit based
    on concerns that the Director, Operational Test and Evaluation (DOT&E)
    expressed in his “Operational Test and Evaluation Annual Report, FY 2000,”
    February 2001. Specifically, the Director expressed concern about programs
    beginning operational test and evaluation without completing sufficient
    developmental test and evaluation and about the Navy’s use of test waivers.
    DoD guidance does not specifically define what a waiver from developmental and
    operational testing is. DOT&E and the Military Departments have differing
    definitions for test waivers and use different terms when referring to the deferral
    of testing.

    DOT&E Test Waiver. The Office of DOT&E defines a test waiver as deferral
    of a testing requirement, which does not eliminate the requirement for testing.
    The DOT&E definition does not include sections 2399 and 2366, title 10, United
    States Code, regarding system contractor involvement in operational test and
    evaluation and when live-fire test and evaluation is too expensive or impractical,
    respectively.

    Army Test Waiver. The Army uses a test waiver to allow testers not to conduct
    the testing specified in the approved test and evaluation master plan (TEMP);
    however, for those tests for which waivers were granted for reasons other than
    availability of data, the program manager or other appropriate official will expand
    production testing or follow-on operational testing to address those operational
    requirements not previously tested. In addition, the Army uses the terms
    “limitations” and “delays” to defer specific operational test requirements.
    Further, Army guidance requires the approved TEMP to state the test limitations
    that may affect the resolution of critical operational issues; the impact of those
    limitations, such as the effects on COIs; and the ability to formulate conclusions
    regarding operational effectiveness and operational suitability.

    Navy Test Waiver. The Navy uses the term “waiver” to mean either deferral of
    testing of an operational requirement or authorization to proceed with testing,
    even though the program has not met the requirements of Secretary of the Navy
    Instruction 5000.2B, “Implementation of Mandatory Procedures for Major and
    Non-Major Defense Acquisition Programs and Major and Non-Major Information
    Technology Acquisition Programs,” December 6, 1996.

    Air Force Test Waiver. Air Force procedures require program managers to
    process waivers to modify specific operational test requirements, and identify test
    limitations in test plans. Further, Air Force guidance requires waived items to be
    tested in subsequent operational test and evaluation or the operational
    requirements document (ORD) must be changed.

    Military Departments’ Position on DOT&E Waiver Definition. Although the
    Military Departments did not agree that test limitations and test deferrals are
    equivalent to test waivers, as defined by DOT&E, test limitations and test
    deferrals accomplish the same objective as test waivers by deferring required

                                         1
    testing until later in the system acquisition process, usually after the system’s
    full-rate production decision. Further, DOT&E has indicated that test limitations
    and test deferrals are equivalent to test waivers in that they also result in the
    deferral of testing requirements. Appendix B provides a glossary of technical
    terms used in this report.

Objectives
    The primary audit objective was to evaluate the overall management of waivers of
    developmental and operational test requirements. Specifically, we evaluated the
    process for justifying, reviewing, and approving the waiver of developmental and
    operational testing requirements for Defense systems. Additionally, we evaluated
    the management control program as it related to the audit objective. See
    Appendix A for a discussion of the scope and methodology, the review of the
    management control program, and prior coverage related to the audit objectives.




                                        2
                    A. Meeting Operational Requirements
                    The independent operational test and evaluation organizations within the
                    Military Departments were not able to fully resolve critical operational
                    issues (COIs) for weapon systems during initial operational test and
                    evaluation. This condition occurred because the Military Departments
                    were approving operational test requirement waivers or waiver
                    equivalents, such as test limitations and deferrals, so that:

                             •   the full-rate production decisions would not be delayed and

                             •   program tests and evaluations would be deferred into the
                                 production phase of the acquisition process.
                    As a result, weapon systems that were not fully ready continued into
                    production before critical operational issues were resolved, creating a
                    potential need for costly retrofit of fielded units and an initial operational
                    performance that may be less than required to defeat the expected threat.

Test and Evaluation Policy
           The following provides an overview of DoD and Military Department policy
           concerning COIs and operational testing for acquisition programs. A COI is an
           issue of operational effectiveness and operational suitability, normally phrased as
           a question, that must be examined in operational test and evaluation to determine
           the system’s capability to perform its mission. Appendix C provides a detailed
           discussion of the policy.

           DoD Policy. The DoD Instruction 5000.2, “Operation of the Defense Acquisition
           System,” May 12, 2003, requires that deficiencies encountered in testing before
           the low-rate initial production (LRIP) decision be resolved before the system can
           proceed beyond LRIP and that any fixes to those deficiencies be verified during
           follow-on operational test and evaluation.1 In addition, the DOT&E issued
           guidance on August 3, 2001, in a memorandum, “DOT&E Goals,” that directed
           the Military Department testers not to issue waivers or deferrals that would
           prevent a complete evaluation of operational requirements. The DOT&E
           guidance also states that test requirements that have been waived should be
           considered failed unless the ORD requirement is changed.
           The previous DoD 5000 series guidance stated that, before the full-rate
           production decision review, operational test and evaluation will:
                  • determine the operational effectiveness and suitability of a system
                      under realistic conditions,

                    •   determine whether the thresholds and objectives in the approved ORD
                        and the COIs were satisfied, and
1
    The previous draft DoD Instruction had the same requirement. The Office of the Secretary of Defense
    canceled the DoD 5000 series guidance and replaced it with 120-day interim guidance in October 2002.


                                                      3
            •   assess the effects of demonstrated system performance on combat
                operations.

     The guidance also stated that the milestone decision authority will schedule a
     review during the production and deployment phase to consider the results of
     qualification testing and initial operational test and evaluation before authorizing
     full-rate production and deployment.
     Army Policy. The policy states that COIs are the operational effectiveness,
     suitability, and survivability concerns that must be examined in operational test
     and evaluation to determine the degree to which the system is capable of
     performing its mission.

     Navy Policy. The policy states that operational test and evaluation is subdivided
     into initial operational test and evaluation and follow-on operational test and
     evaluation. For each program, the Commander, Operational Test and Evaluation
     Force (COMOPTEVFOR):

            •   develops the COIs to be addressed,

            •   publishes the COIs in the TEMP, and

            •   links the COIs to the Chief of Naval Operations requirements
                established in the ORD.

     Air Force Policy. The policy states that the use of operational test and evaluation
     will determine the operational effectiveness and suitability of systems undergoing
     research and development efforts. The initial operational test and evaluation
     substantiates decisions for proceeding beyond LRIP, full-rate production and
     fielding, and declaration of initial operational capability. The results of initial
     operational test and evaluation are to answer completely and unambiguously all
     COIs as thoroughly as possible. Further, testers are not to defer testing to
     follow-on operational test and evaluation unless unavoidable.

Addressing Critical Operational Issues
     The Military Departments’ acceptance of test waivers and other test limitations
     impeded their independent operational test and evaluation organizations from
     fully resolving COIs during initial operational test and evaluation. This condition
     occurred because the Military Departments were approving operational test
     requirement waivers or waiver equivalents, such as test limitations and deferrals,
     so that:

            •   the full-rate production decisions would not be delayed and

            •   program tests and evaluations would be deferred into the production
                phase of the acquisition process.




                                           4
            DOT&E identified 11 DoD programs with approved operational test requirement
            waivers or waiver equivalents dated from October 1, 1997, through May 6, 2002.
            Our review of those 11 programs indicated that 8 of the respective program
            offices entered initial operational test and evaluation with deficiencies and
            postponed testing and evaluation that affected the resolution of one or more COIs
            for operational effectiveness or operational suitability. Appendix D describes the
            11 programs reviewed.

            The following table summarizes the system-specific COIs affected by test waivers
            or waiver equivalents for the eight systems. The COIs affected by test waivers
            and limitations are categorized by operational effectiveness and operational
            suitability. The table further separates operational suitability into the areas of
            reliability, availability, maintainability, interoperability, compatibility, logistics
            supportability, safety, human factors, and training. The table identifies the COI
            categories not resolved because of test waivers or waiver equivalents for the
            eight programs affected as indicated by the “X.” The nine COI categories listed
            are not applicable to each of the eight programs.

    Critical Operational Issues Not Fully Resolved Because of Approved Test Waivers
               or Test Limitations for the Eight Defense Systems Affected

                                                   Critical Operational Issues Categories
                       Operational
                      Effectiveness                            Operational Suitability
                                                                                    Logistics
                                       Reli-    Avail- Maintain- Inter-     Compat- Support-       Human
                                      ability   ability ability operability ibility ability Safety Factors
Army
Javelin                                 X
Patriot Advanced
  Capability                 X          X           X
Tactical Unmanned
  Aerial Vehicle             X                                                              X
Navy
                            *2
F/A-18E/F Super Hornet
V-22 Osprey*
Air Force
F-15 Tactical Electronic
  Warfare System                        X           X
Fighter Data Link                       X
Predator Unmanned
  Aerial Vehicle         X              X                              X


*
    Deliberative process privilege data omitted.
2
    The Navy testers considered the COIs to be resolved even though the program office had not resolved the
    deficiencies that caused the test waivers before the full-rate production decision.


                                                          5
            A discussion of the nine COI categories affected by test waivers and limitations
            and examples of the affected COIs from the eight programs affected follow.
            Further details of all affected COIs are in Appendix E.


Operational Effectiveness
            Of the eight programs affected by waivers, five programs deferred planned
            operational tests that affected the resolution of COIs associated with operational
            effectiveness. Examples of those programs are the Patriot Advance Capability-3,
            the F/A-18E/F Super Hornet, and the Predator Unmanned Aerial Vehicle.

            Patriot Advance Capability-3. The COI requires the Patriot Advanced
            Capability-3 to enhance the effectiveness of the Patriot system. The testers were
            not able to resolve the operational effectiveness COI before the planned full-rate
            production decision because the Army deferred test requirements:

                     •   for the missile to effectively destroy a target and counteract
                         countermeasures,

                     •   for the ground system to distinguish between targets, and

                     •   for the system to operate in all required environments.

            In consideration of performance problems identified during limited user testing,
            the Program Manager obtained the approval of the Joint Requirements Oversight
            Council to defer those test requirements as part of an evolutionary development
            program after the planned full-rate production decision. As a consequence, the
            Army Test and Evaluation Command determined in the limited user tests
            preceding the LRIP decision that the Patriot Advanced Capability-3 had limited
            operational effectiveness. To subsequently demonstrate those deferred test
            requirements, the Program Office stated that the Army increased funding for
            system development by approximately $90 million to demonstrate those ORD
            requirements. During the initial operational test and evaluation conducted in 2002,
            the Army Test and Evaluation Command and the Director, Operational Test and
            Evaluation determined that the Patriot Advanced Capability-3 was operationally
            effective with limitations.

            F/A-18E/F Super Hornet.

                                                        *




*
    Deliberative process privilege data omitted.


                                                   6
                                                       *

                                                      The issue of the F/A-18E/F waivers,
            limitations, and deficiencies that affected the resolution of operational
            effectiveness and suitability COIs before the planned full-rate production decision
            has also been addressed in reports by the Inspector General of the Department of
            Defense (IG DoD) and the Defense Science Board.
                    Inspector General of the Department of Defense. The IG DoD Report
            No. 99-205, “Operational Testing and Evaluation of the F/A-18E/F Super Hornet,”
            July 7, 1999, states that, in March 1999, the COMOPTEVFOR submitted the test
            plan for the F/A-18E/F. The test plan listed one limitation that precluded it from
            assessing the COI for reconnaissance because the tactical reconnaissance sensor
            suite was not cleared for employment during the operational evaluation. In
            addition, the report states that, before the operational evaluation began in May
            1999, the Navy approved a temporary waiver for uncorrected technical
            deficiencies identified during developmental testing before beginning initial
            operational test and evaluation.
                    Defense Science Board. Report of the Defense Science Board Task Force
            on Test and Evaluation Capabilities, December 2000, states that the Navy did not
            assess the effect of waived test requirements on the resolution of the system’s
            COIs during the evaluation of F/A-18E/F aircraft operational effectiveness and
            suitability. The Navy waived several of the test requirements because certain
            aircraft components exhibited poor reliability during developmental testing.
            Accordingly, the Navy did not assess the effect of those aircraft components and
            the associated repair times in the evaluation of the key F/A-18E/F aircraft
            suitability requirements of reliability, maintainability, and availability. Several of
            the waived aircraft components, which the Navy did not include in the operational
            assessment, caused failures and required a significant amount of time for
            inspections and repairs during the operational evaluation.

            Predator Unmanned Aerial Vehicle. Although the Predator System Program
            Office certified that the Predator was ready to enter operational testing, it
            identified operational effectiveness limitations related to the system’s ability to
            recognize tactical-sized targets. Those limitations were identified during informal
            developmental testing. An operational effectiveness COI for the Predator requires
            it to perform reconnaissance, surveillance, and target acquisition tasks to support
            battle management, execution, and operations other than war. Based on
            operational testing conducted before the full-rate production decision, DOT&E
            stated that the Predator was not operationally effective, which included the
            inability to recognize tactical-sized targets.

Reliability, Availability, and Maintainability
            Because reliability, availability, and maintainability are interrelated, we combined
            them for discussion purposes. Of the eight programs affected by waivers,
            seven programs deferred planned operational tests that affected the resolution of
            COIs associated with suitability in the areas of system reliability, availability,
*
    Deliberative process privilege data omitted.


                                                   7
maintainability, or a combination thereof. Examples of those programs are the
Javelin, the V-22 Osprey, and the F-15 Tactical Electronic Warfare System.

Javelin. A COI for the Javelin requires that it be designed so that it is sufficiently
reliable and maintainable to employ on the projected battlefield. However, the
Javelin entered initial operational test and evaluation with limitations associated
with reliability. Engineering and manufacturing development testers estimated
that the field tactical trainer (range) would achieve 25 hours, rather than the
100 hours required. The system completed initial operational test and evaluation
in December 1993, the results of which indicated that the system had unresolved
operational suitability issues related to the reliability parameters prescribed for
system maturity; specifically, the training devices were unreliable. According to
the Deputy Under Secretary of the Army (Operations Research), the U.S. Army
Infantry reevaluated the requirements in 1994 and reduced the 100-hour
requirement to 50 hours that should be attained at the time of system maturity,
3 years after the full-rate production decision. The Deputy also stated that the
requirement for the full-rate production decision was 32 hours as shown in the
System Evaluation Report, March 27, 1997. The Army operational testers
resolved the operational suitability issues after the full-rate production decision.

V-22 Osprey. A COI for the V-22 requires that it be reliable and maintainable in
its intended operating environment and available to support its mission.
Developmental test results indicated that the V-22 mean time between failure and
false alarm rate did not achieve technical thresholds, thereby affecting the
complete resolution of reliability, availability, maintainability, and diagnostic
issues with the V-22 during operational test and evaluation. Consequently, the
program manager requested a waiver of the V-22 mean time between failure and
false alarm rate requirement. The Program Executive Officer for Air
Anti-Submarine Warfare, Assault, and Special Mission Programs stated that the
waived requirement would be ready for operation testing after the full-rate
production decision. On November 17, 2000, DOT&E stated in its beyond LRIP
report for the V-22 that the V-22 was not operationally suitable, primarily because
of reliability, maintainability, availability, human factors, and interoperability
issues. DOT&E based its conclusion on the failure rate of aircraft components
exhibited during testing.

F-15 Tactical Electronic Warfare System. A COI for the F-15 Tactical
Electronic Warfare System (the System) requires that the Band 1.5 system be
operationally ready to support F-15E mission requirements. The Air Force will
depend on the capability of the built-in-test of the System to identify faults and
take corrective action in a timely manner. The May 2000 TEMP did not show any
test limitations associated with the built-in-test; however, it did show that the
System had an open deficiency for an excessive built-in-test false alarm rate.
Although the deficiency existed, the Air Force conducted initial operational test
and evaluation in FY 2000 and determined that the built-in-test false alarm rate
was 65 percent, compared to the required built-in-test false alarm rate of less than
20 percent. The excessive false alarm rate caused numerous unwarranted
maintenance actions and distracted the air crew’s attention from primary mission
functions. Even with the excessive false alarm rate, the Air Force approved the



                                      8
     system for production because the System provided a greater capability than was
     previously available, according to DOT&E representatives. In addition, DOT&E
     approved the TEMP and operational test and evaluation plan for the Band 1.5
     system, both of which addressed the false alarm rate and required future testing,
     according to Air Force Test and Evaluation Directorate representatives. The
     representatives also stated that the Air Force submitted plans to DOT&E to correct
     the false alarm rate problems in the next increment, Band 5.0.

Interoperability
     The Predator Unmanned Aerial Vehicle exempted planned operational tests of
     interoperability data links and file formats because the Joint Interoperability Test
     Command had not certified the system for interoperability. This exemption
     affected the resolution of the COI requiring the Predator to be interoperable with
     other command, control, communication, and computers and intelligence systems.
     Accordingly, the System Program Office certified that the Predator Unmanned
     Aerial Vehicle was ready for operational testing with a stipulation that, if the Joint
     Interoperability Test Command did not certify the system for interoperability
     during initial operational test and evaluation, the System Program Office would
     complete the certification process after the completion of operational testing.
     According to the DOT&E FY 2001 Annual Report, the Joint Interoperability Test
     Command had not yet certified the Predator for interoperability because of the
     untested requirements affecting the resolution of the COI. Further, the Joint
     Interoperability Test Command had certified only three of the seven critical system
     interfaces because the remaining interfaces were not available for evaluation. The
     System Program Office deferred further interoperability testing of the Predator
     until the Military Departments field ground stations that are equipped with tactical
     control stations.

Compatibility
     Of the eight programs affected by waivers, the program offices for the F/A-18E/F
     Super Hornet, and the V-22 Osprey deferred planned operational tests that affected
     the resolution of COIs associated with suitability in the area of system
     compatibility.

     F/A-18E/F Super Hornet. On the F/A-18E/F Program, the Director of Navy Test
     and Evaluation and Technology Requirements, Office of the Chief of Naval
     Operations approved four test waiver requests that affected the resolution of the
     COI requiring the F/A-18E/F to be compatible with its operating environment.
     The Program Executive Officer for Tactical Aircraft requested the waivers because
     developmental test results evidenced poor communication between aircraft,
     inadequate radio reception while transmitting, ineffective concurrent transmission,
     and incompatibility with the combat training system. In the request, the Program
     Executive Officer for Tactical Aircraft stated that the waived requirements would
     be subjected to operational testing after the planned full-rate



                                           9
                                                        ∗
           production decision.



           V-22 Osprey. On the V-22 Osprey Program, the Director of Navy Test and
           Evaluation and Technology Requirements approved three test waivers that the
           program manager requested for the COI requiring the V-22 to be compatible with
           its operating environment. The program manager requested the waivers because:

                    •    developmental test results identified inadequate cockpit and cabin
                         nuclear, biological and chemical overpressure protection; an inability to
                         align the lightweight inertial navigation system without the global
                         positioning system signal; and
                    •    the aircraft could not be cleared to operate in icing conditions.

           The Program Executive Officer for Air Anti-Submarine Warfare, Assault, and
           Special Mission Programs stated that the waived requirement would be ready for
           operational testing after the full-rate production decision.

Logistics Supportability
           The Program Office for the Tactical Unmanned Aerial Vehicle deferred planned
           operational tests that affected the resolution of the COI requiring the system to
           meet the ground maneuver brigade commander’s sustained combat requirements.
           Specifically, the test and evaluation was limited because testers could not verify
           the supportability of the system when using heavy fuel. The ORD objective
           requires the system to use only heavy fuel; however, the system available for
           testing used motor gasoline, which meets the operational requirement threshold,
           the minimal acceptable value necessary to satisfy the need. According to
           DOT&E, even though the system used motor gasoline, the system met the fuel
           requirement by meeting the threshold; however, the Army is addressing
           supportability issues about the system being able to support a motor gasoline in the
           future. After the planned full-rate production decision, the Army will conduct a
           follow-on operational test and evaluation to test for the heavy fuel requirement.

Safety
           Of the eight programs affected by waivers, the Program Offices for the F/A-18E/F
           Super Hornet and the V-22 Osprey deferred planned operational tests that affected
           the resolution of COIs associated with suitability in the area of system safety.

           F/A-18E/F Super Hornet. On the F/A-18E/F Program, the Director of Navy Test
           and Evaluation and Technology Requirements approved three waiver requests,
           which the Program Manager submitted, that affected the resolution of a COI

∗
    Deliberative process privilege data omitted.


                                                   10
           related to safety. The COI requires that the F/A-18E/F be safe to operate and
           maintain. Based on developmental testing results, the program manager requested
           that operational tests addressing the hydraulic fluid level indicator and erroneous
           velocity vector performance be waived. The Program Executive Officer for
           Tactical Aircraft stated that the waived requirement would be subject to
           operational testing after the full-rate production decision.
                                                        ∗




           V-22 Osprey. On the V-22 Osprey Program, the Director of Navy Test and
           Evaluation and Technology Requirements approved four test waivers, which the
           Program Manager requested, that affected the resolution of the COI requiring the
           V-22 to be safe to operate and maintain. The program manager requested the
           waivers because, during developmental testing, excessive force was required to
           disconnect the intercommunication system, the pilot and copilot seats had
           nonqualified inertial reels, the autorotative descent could not be maintained while
           attempting engine air start, and the ground collision avoidance and warning system
           was not available for test.


                                                        *


Human Factors
           For the eight programs affected by waivers, the Program Office for the F/A-18E/F
           Super Hornet deferred planned operational tests that affected the resolution of the
           COI requiring that the human factors aspects of the F/A-18E/F support completion
           of the aircraft’s mission. The Program Executive Officer for Tactical Aircraft
           requested and the Director of Navy Test and Evaluation and Technology
           Requirements approved a waiver of the test for the ALR-67 power switch on the
           center pedestal because it was not within reach of the pilot when he was strapped
           in the seat. The Program Executive Officer for Tactical Aircraft stated that the
           waived requirement would be subject to operational testing after the full-rate
           production decision.

                                                        *




∗
    Deliberative process privilege data omitted.




                                                   11
Effect of Not Meeting Operational Requirements
    Without the Military Departments fully resolving COIs for weapon systems
    during initial operational test and evaluation, weapon systems that were not fully
    ready continued into production, thereby creating a potential need for costly
    retrofit of fielded units and an initial operational performance that may be less
    than required to defeat the expected threat.

Management Comments on the Finding and Audit Responses
    Summaries of management comments on the finding and audit responses are in
    Appendix F for the Director, Operational Test and Evaluation; Appendix G for
    the Army; Appendix H for the Navy; and Appendix I for the Air Force.

Recommendations, Management Comments, and Audit
  Responses
    A. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, in conjunction with the Director, Operational
    Test and Evaluation, require that:

           1. The Military Departments assess operational performance
    requirements, including critical operational issues, as unattained in test
    reports when test waivers, or their equivalents, prevent a complete
    evaluation of operational requirements.

    Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comments. The Under Secretary did not provide comments on the draft report.
    We request that the Under Secretary provide comments in response to the final
    report.
    Director, Operational Test and Evaluation Comments. The Director did not
    comment on the recommendation. We request that the Director provide
    comments in response to the final report.

    Deputy Under Secretary of the Army (Operations Research) Comments.
    Although not required to comment, the Deputy agreed with the recommendation,
    stating that the Army focused its COIs and criteria on mission accomplishment.
    Further, he stated that a breach of a specific criterion is a reason to delay entry
    into full-rate production unless other evidence shows that the system is
    operationally effective and suitable. For the complete text of the Deputy’s
    comments, see the Management Comments section of the report.




                                         12
Deputy Assistant Secretary of the Navy (Research, Development, Test and
Evaluation) Comments. Although not required to comment, the Deputy
disagreed with the recommendation, stating that the Military Departments and the
milestone decision authorities already conduct assessments of the operational
performance requirements and consider the assessments in their program
decisions. Further, he stated that, if the intent of the recommendation is to
prevent the Military Departments or the milestone decision authorities from
fulfilling their obligations until the testers operationally test all items, then such a
recommendation should be rescinded. The Deputy also stated that the
Component Acquisition Executives and milestone decision authorities are fully
aware of and consider test waivers and deferrals as well as test results in their
decisions. The Deputy asserted that the report provides no cases where test
waivers or deferrals resulted in a Component Acquisition Executive or a
milestone decision authority making uninformed decisions that caused costly
retrofits of capability due to inadequate tests or that resulted in a program’s not
meeting the expected threat. The Deputy stated that his comments contained
information considered privileged in litigation, primarily under the deliberative
process privilege and, therefore, was exempt from mandatory disclosure under the
Freedom of Information Act. Where applicable, he marked his comments “For
Official Use Only.” For the complete text of the Deputy’s comments, see the
Management Comments section of the report.

Audit Response. The recommendation is not intended to prevent Military
Departments or milestone decision authorities from fulfilling their obligations
until all items are operational tested. The intent of the recommendation was to
ensure that the milestone decision authorities are fully aware of any COIs that the
respective program offices may have waived, deferred, or limited that could affect
the operational effectiveness or operational suitability of the system and its ability
to meet the users’ requirements.

A milestone decision authority cannot be fully aware of and consider test waivers
and deferrals as well as test results if an assessment of the waiver, deferral, or
limitation is not available at the time of the milestone decision. In making a
milestone decision, the milestone decision authority is relying on the respective
program office to satisfactorily resolve the waived COIs based on future test
results and on the resolution of those COIs that will not result in costly retrofits
for the system to fully meet operational requirements and user needs.

Resolution of waived COIs can result in costly retrofits in systems produced,
however. The report did not illustrate cases where test waivers or deferrals
resulted in the milestone decision authority making uninformed decisions that
caused costly retrofits or that resulted in a program not meeting the expected
threat. However, the Defense Science Board Report, December 2000, concluded
that the process of handling waivers seriously undermined the test and evaluation
process and may have negatively affected weapon systems. Further, the DOT&E
stated in his annual report for FY 2002 that he was concerned about the pressure
to deploy new systems that the Military Departments have not adequately tested.




                                      13
He stated that the desire to field new capabilities as soon as possible should be
tempered with the responsibility to ensure that associated weapon systems will
not put Americans at risk. He also noted that, because of concern about fielding
of inadequately tested systems, Congress has enacted new legislation requiring
the DOT&E annual report to identify Military Departments’ waivers or deviations
from testing requirements.

Director, Air Force Test and Evaluation Comments. Although not required to
comment, the Director disagreed with the recommendation, stating that the terms
“waivers or their equivalents” are too problematic and that the Office of the
Secretary of Defense (OSD) and the Military Departments have not uniformly
accepted the terms or practices associated with that terminology. Further, he
stated that the DOT&E did not coordinate his August 3, 2001, memorandum with
the Air Force, and that the Air Force has fundamental disagreements with the
memorandum’s statements on waivers and requirements. For the complete text of
the Director’s comments, see the Management Comments section of the report.

Audit Response. Because the terms “waivers or their equivalents” vary among
the Military Departments, we have recommended in Finding B that the OSD and
the Military Departments collectively establish consistent guidance for test
waivers or deferrals. In addition, the DOT&E stated in his August 3, 2001,
memorandum that he:

       •   intended to communicate the major points of the memorandum with
           the commanders of the operational test agencies and

       •   encouraged the commanders to share the guidance with their staffs.

Further, in January 2003, the DOT&E stated that the Military Departments should
have already promulgated the test policy in his August 3, 2001, memorandum.

       2. Milestone decision authorities require that program managers
resolve critical operational issues before approving full-rate production for a
weapon system.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Under Secretary did not provide comments on the draft report.
We request that the Under Secretary provide comments in response to the final
report.

Director, Operational Test and Evaluation Comments. The Director partially
concurred, stating that examples may exist where, because of an operational
requirement, a capability is urgently needed. Consequently, testers may not fully
evaluate all COIs during operational test and evaluation because of unanticipated
problems, such as test range limitations, instrumentation limitations, or
availability. In such a case, he stated that the milestone decision authorities
should have the prerogative to field the current capability, which would be more
beneficial to the warfighter, rather than wait to enter full-rate production until the
respective program office resolves all COIs.



                                      14
Audit Response. The Director’s comments on the recommendation were
responsive. We agree that in the excepted case where a capability is needed
because of an urgent operational requirement, the milestone decision authorities
should have the prerogative to field the current capability, rather than wait to
enter full-rate production until the respective program office resolves all COIs.
Otherwise, milestone decision authorities need to comply with the DoD
Instruction 5000.2 requirement that deficiencies encountered in testing before the
LRIP decision be resolved before the system can proceed beyond LRIP, and that
any fixes to those deficiencies be verified during follow-on operational test and
evaluation.

Deputy Under Secretary of the Army (Operations Research) Comments.
Although not required to comment, the Deputy agreed with the concept of the
recommendation and provided the same comments as he did for
Recommendation A.1.

Deputy Assistant Secretary of the Navy (Research, Development, Test and
Evaluation) Comments. Although not required to comment, the Deputy
disagreed with the concept of the recommendation and provided the same
comments as he did for Recommendation A.1.

Audit Response. See the audit response for Recommendation A.1. In addition to
the earlier response, DoD Instruction 5000.2, requires that deficiencies
encountered in testing before the LRIP decision be resolved before the system can
proceed beyond LRIP, and that any fixes to those deficiencies be verified during
follow-on operational test and evaluation.

Director, Air Force Test and Evaluation Comments. Although not required to
comment, the Director disagreed with the recommendation, stating that the
recommendation was counter-productive and undermines the Under Secretary of
Defense for Acquisition, Technology, and Logistics’ new direction in the
DoD 5000-series to make evolutionary acquisition the preferred acquisition
strategy. The Director believed that the milestone decision authorities must retain
sufficient management flexibility to plan wisely and must retain authority to make
needed trade-offs among cost, schedule, and performance for the good of the
program. Further, he believed that large cost overruns and long delays to fielding
new capabilities to warfighters would become routine if DoD implemented the
recommendation.

Audit Response. The key point of this report is to not just field new capabilities,
but to field new capabilities that will fully meet warfighter requirements by
efficiently resolving core impediments to fulfilling those requirements. A system
being acquired using the evolutionary acquisition strategy still has to meet the
operational requirements and COIs for that block of the evolutionary acquisition.
When milestone decision authorities make trade-offs among cost, schedule, and
performance, they still need to ensure that the system will meet user requirements.
Therefore, system deficiencies that were identified before the system entered
initial operational test and evaluation should be resolved before the system enters
full-rate production for that block. The resolution of pre-initial operational test
and evaluation deficiencies before full-rate production does not conflict with the
DoD Instruction 5000.2, which requires that deficiencies encountered in testing

                                    15
before the LRIP decision be resolved before the system proceeds beyond LRIP.
Enforcement of this requirement will avoid large cost overruns to retrofit fielded
systems that do not meet user requirements. Further, timely management efforts
to resolve system deficiencies before production should not significantly delay
fielding new capabilities to warfighters. On the other hand, it will provide the
warfighters with a system that is operationally effective and suitable to defeat the
expected threat.




                                     16
            B. Waiver Policies and Procedures
            The Military Departments applied inconsistent waiver-and-limitation
            terminology and procedures when referring to the deferral of testing.
            Although the Military Departments have policies and procedures for
            waivers, only the Navy processed waivers to defer testing of operational
            requirements. Conversely, the Army and the Air Force cited test
            limitations to defer testing of operational requirements. This condition
            occurred because OSD had not issued specific guidance for approving and
            processing waivers and other deferrals of operational testing.
            Subsequently, the OSD issued guidance directing the Military Department
            testers not to issue waivers or deferrals that would prevent a complete
            evaluation of operational requirements and require deficiencies
            encountered in testing to be resolved before LRIP. However, the Military
            Departments have not incorporated the new guidance into their testing
            policies and procedures. Without consistent and updated
            waiver-and-limitation terminology and procedures for deferral of testing,
            the Military Departments’ use of test waivers is inconsistent with OSD
            policy and affects the milestone decision makers’ ability to make fully
            informed decisions before systems enter LRIP and full-rate production.

Military Departments’ Application of Waiver Policy and
  Procedures
     The Military Departments inconsistently applied waiver-and-limitation
     terminology and procedures when referring to deferral of testing until after the
     full-rate production decision review. Specifically:

            •   the Army procedures require waivers when testing in the approved
                TEMP will not be conducted and use the terms “limitations” and
                “delays” to defer specific operational test requirements,

            •   the Navy procedures require waivers to defer specific operational test
                requirements, and

            •   the Air Force procedures require waivers to defer specific operational
                test requirements; however, instead of using waivers, program
                managers used test limitations to defer specific operational test
                requirements.

     Army Procedures. Army Regulation 73-1, “Test and Evaluation Policy,”
     January 7, 2002, and Army Pamphlet 73-2, “Test and Evaluation Master Plan
     Procedures and Guidelines,” October 11, 1996, address developmental and
     operational testing waivers and other methods for deferring testing.

             Testing Waivers. Army Regulation 73-1 requires testers to conduct the
     testing specified in the approved TEMP unless the program manager or other
     appropriate official submits a written request for waiver and receives approval


                                         17
from the TEMP approval authority. Further, the Regulation states that the
approval of testing waivers will depend on the availability and acceptability of
relevant data and information and will not negate the requirement for independent
system evaluation. For those tests for which waivers were granted for reasons
other than availability of data, the program manager is to expand production
testing or follow-on operational testing to address those operational requirements
not previously tested.

        Testing Deferrals. Army guidance uses the terms “limitations” and
“delays” to defer specific operational test requirements. Further, Army guidance
requires the approved TEMP to state the test limitations that may affect the
resolution of critical operational issues; the impact of those limitations, such as
the effects on COIs; and the ability to formulate conclusions regarding
operational effectiveness and operational suitability. In addition, Army
Regulation 73-1 states that developmental or operational testing may be delayed
when circumstances warrant. Test delays can be issued at the start of testing to
address evaluation issues when the tester identifies a problem that would affect
the completeness of the data being collected. Further, the Regulation states that
tests will be delayed when it is apparent that the system has little chance of
successfully attaining critical technical parameters or satisfying critical
operational criteria, and when deficiencies cannot be resolved before the start of
test.

Navy Procedures. Secretary of the Navy Instruction 5000.2B, “Implementation
of Mandatory Procedures for Major and Non-Major Defense Acquisition
Programs and Major and Non-Major Information Technology Acquisition
Programs,” December 6, 1996, addresses processing Navy waivers that affect the
dedicated initial operational test and evaluation. Navy waivers consist of waivers
from compliance with the criteria for certification of readiness for operational test
and evaluation and waivers for deviations from TEMP testing requirements. The
Navy processes those waivers in the following manner, with the waived
requirement being tested in subsequent operational tests.

        Waiver Process. The program manager or program executive officer
formulates waiver requests before the operational test readiness and certification
review process in an operational test and evaluation certification message. When
requesting a waiver, the program manager will outline the limitations that the
deferral or waiver will place upon the system under test and the potential effects
on fleet use. Further, a statement will be made in the operational test and
evaluation certification message noting when the approved deferrals will be
available for subsequent operational testing. The Director, Navy Test and
Evaluation and Technology Requirements approves waiver requests, as
appropriate, in coordination with the COMOPTEVFOR; the Deputy Chief of Naval
Operations (Logistics); the Deputy Chief of Naval Operations (Resources, Warfare
Requirements, and Assessments); and the program sponsor; and advises DOT&E
when the waiver is for a major defense acquisition program.

        Subsequent Operational Tests. Approval of a test waiver request does
not alter the test requirement. The program manager is still required to test the
waived requirement in subsequent operational testing. A waiver may result in
limitations to the scope of testing that preclude the COMOPTEVFOR from fully

                                     18
resolving all COIs. The COMOPTEVFOR is not to assess waived requirements
in its analysis to resolve COIs, but may comment on the waived requirements in
the applicable test report.

Air Force Procedures. Air Force Instruction 99-102, “Operational Test and
Evaluation,” July 1, 1998; Air Force Operational Test and Evaluation Center
Instruction 99-102, “Operational Test and Evaluation,” January 20, 2000; and
Air Force Manual 63-119, “Certification of System Readiness for Dedicated
Operational Test and Evaluation,” February 22, 1995, establish guidance for
Air Force waivers from testing requirements. The Air Force procedures require
program managers to process waivers to defer specific operational test
requirements and identify test limitations in test plans.

        Test and Evaluation Waivers. Air Force Instruction 99-102 and
Air Force Manual 63-119 require the Air Force Operational Test and Evaluation
Center to prepare a request to waive or modify fundamental provisions for
operational test and evaluation. With the user and developer concurrence, the
Air Force Operational Test and Evaluation Center is to submit the request to the
Air Force Test and Evaluation Directorate. The system program manager and the
system’s program element monitor are to document any approved operational test
and evaluation waivers in the TEMP and the program management directive,
respectively. Air Force Manual 63-119 requires a waived requirement to be
tested in subsequent operational test and evaluations or the user must change the
ORD requirement. Before initial operational test and evaluation, the system
program manager is to:

               •   list any required waivers or areas excluded from the test and
                   evaluation, the rationale, and future plans to clear the waivers,
                   and

               •   provide a summary of the list to the operational tester.

In response, the operational tester is to indicate whether to proceed with the test
and is to discuss the effects of test limitations and test waivers on resolving
operational test issues in the test report.

        Other Deferred Testing. Air Force Instruction 99-102 states that the
final operational test and evaluation report must contain descriptions of test
methods and limitations; definitive test results; and system capabilities and
limitations as measured against the ORD. According to Air Force Operational
Test and Evaluation Center, testers should not include system limitations in the
system evaluation and should not fail the system because of the limitations.

OSD Guidance for Test Deferrals. The Military Departments did not
consistently apply waiver-and-limitation terminology and procedures to defer
required operational testing as discussed because the Under Secretary of Defense
for Acquisition, Technology, and Logistics and the DOT&E had not issued
guidance that provided specific procedures for requesting approval to defer test
requirements to future periods and for evaluating those deferral requests.



                                     19
            Further, the DOT&E issued guidance on August 3, 2001, that directed Military
            Department testers not to issue waivers or deferrals that would prevent a complete
            evaluation of operational requirements. The DOT&E guidance also states that
            test requirements that have been waived should be considered failed unless the
            ORD requirement is changed. However, the Military Departments had not
            incorporated the new guidance into their testing policies and procedures.

            On May 12, 2003, OSD issued DoD Instruction 5000.2 that requires the
            operational test and evaluation testers to determine the operational effectiveness
            and suitability of a system under realistic operational conditions, including
            combat; determine whether thresholds in the approved ORDs3 and critical
            operational issues have been satisfied; and assess effects on combat operations.
            In addition, the Instruction requires that deficiencies encountered in testing before
            the LRIP decision be resolved before the system can proceed beyond LRIP, and
            that any fixes to those deficiencies be verified during follow-on operational test
            and evaluation.

Consistently Applying Waiver-and-Limitation Terminology
  and Procedures
            Without consistent and updated waiver-and-limitation terminology and
            procedures for deferral of testing, the Military Departments’ use of waivers is
            inconsistent with OSD policy issued by the Under Secretary of Defense for
            Acquisition, Technology, and Logistics and the Director, Operational Test and
            Evaluation. Furthermore, the inconsistent policy affect the OSD milestone
            decision makers’ ability to make fully informed decisions before systems enter
            LRIP and full-rate production.

Management Comments on the Finding and Audit Responses
            Summaries of management comments on the finding and audit responses are in
            Appendix F for the Director, Operational Test and Evaluation; Appendix G for
            the Army; Appendix H for the Navy; and Appendix I for the Air Force.




3
    DoD Instruction 5000.2 states that, during system development and demonstration, the capabilities
    demonstration document instead of the ORD will have the detailed operational performance parameters.
    Further, the Instruction states that the capabilities production document instead of the ORD will have the
    operational requirements resulting from system development and demonstration and will detail the
    performance expected of the production system. However, this report uses the term ORD because the
    programs reviewed during the audit used ORDs.


                                                       20
Recommendations, Management Comments, and Audit
  Responses
    Redirected and Revised Recommendation. In response to the recommendation,
    we received varied management comments; however, the general theme was the
    need for a coordinated corrective action plan to include input from the Under
    Secretary of Defense for Acquisition, Technology, and Logistics, and the
    DOT&E. Therefore, to better respond to the recommendation and to obtain
    succinct and attainable corrective action, we are redirecting the recommendation
    to include the Under Secretary of Defense for Acquisition, Technology, and
    Logistics, the DOT&E, and the respective Military Department organizations
    responsible for test and evaluation guidance. Further, in response to the
    comments by the Deputy Under Secretary of the Army (Operations Research), we
    revised the recommendation so that guidance for test waivers or deferrals would
    be jointly promulgated and implemented among OSD and the Military
    Departments.

    B. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics; the Director, Operational Test and Evaluation;
    the Deputy Under Secretary of the Army (Operations Research); the
    Assistant Secretary of the Navy (Research, Development, and Acquisition);
    and the Director, Air Force Test and Evaluation collectively establish
    consistent guidance for test waivers or deferrals.

    Deputy Under Secretary of the Army (Operations Research) Comments. The
    Deputy nonconcurred, stating that the DOT&E directed the guidance in his
    August 3, 2001, memorandum to his staff and focused on the completeness of
    evaluations. Further, he stated that applying consistent test waiver and deferral
    guidance throughout DoD requires the definition of terms. The Deputy suggested
    that we modify the recommendation to recommend that DoD establish a
    DoD-wide process action team, chaired by the Under Secretary of Defense for
    Acquisition, Technology, and Logistics and the DOT&E, with membership from
    the Military Department test and evaluation headquarters and the operational test
    agencies. By establishing the process action team, he concluded that the DoD
    would be able to establish consistent test waiver and test deferral guidance
    throughout DoD. For the complete text of the Deputy’s comments, see the
    Management Comments section of the report.

    Audit Response. The Deputy’s comments were responsive to the intent of the
    recommendation. Consequently, we redirected the recommendation to include
    the Under Secretary of Defense for Acquisition, Technology, and Logistics, the
    DOT&E, and the respective Military Department organizations responsible for
    test and evaluation guidance. The DOT&E stated that the guidance in his
    August 3, 2001, memorandum was communicated to the Military Departments,
    and that the Military Departments should already have promulgated the test
    policy to Military Department operational test organizations.




                                       21
Deputy Assistant Secretary of the Navy (Research, Development, Test and
Evaluation) Comments. The Deputy nonconcurred, stating that the Navy has
formally stated and documented its policy on test waivers and deferrals and that
the concerns expressed in the report are unfounded. He also stated that the Navy
policy on test waivers and deferrals allows the Component Acquisition Executive
and the milestone decision authorities the management flexibility needed to make
programmatic decisions in a timely manner. The Deputy further stated that less
management flexibility would add cost to programs without any benefit. The
Deputy stated that his comments contained information considered privileged in
litigation, primarily under the deliberative process privilege and, therefore, were
exempt from mandatory disclosure under the Freedom of Information Act. Where
applicable, he marked his comments “For Official Use Only.” For the complete
text of the Deputy’s comments, see the Management Comments section of the
report.
Audit Response. Although the Navy has formally stated and documented its
policy on test waivers and deferrals in Secretary of the Navy Instruction 5000.2B,
the Senate Armed Service Committee in its conference report for the FY 2003
DoD appropriation cited a need for the Navy to modify its guidance on waivers.
Specifically, the Committee stated that the Defense Science Board, in its
December 2000 Report, strongly recommended that the Navy modify Secretary of
the Navy Instruction 5000.2B to prohibit it from issuing waivers without DOT&E
review and approval. Further, as discussed in the associated conference report,
Congress enacted new legislation requiring the DOT&E annual report to identify
Military Departments’ waivers or deviations from testing requirements and the
actions that the Military Departments have taken or plan to take to address the
concerns that the waivers or deviations raised.

The Navy policy on test waivers and deferrals allowing management flexibility
states that, after the Director, Navy Test and Evaluation and Technology
Requirements waives a COI or a portion thereof, the COMOPTEVFOR does not
assess the associated requirements in its analysis of test results to determine
whether the system has met the requirements of the COI. Consequently, based on
the successful accomplishment of the tested portion of the unwaived COI
requirements, the COMOPTEVFOR could assess and did assess the entire COI as
met, even though that assessment did not include the waived requirements.
Therefore, when the milestone decision authorities use the COMOPTEVFOR test
analysis in their decision making process, they are informed that the system has
met all of its COI requirements, to include the waived requirements, and that it is
operationally effective and suitable and capable of performing its mission.

The Deputy believes that less management flexibility would add cost to a
program without benefit; however, greater flexibility could result in the Navy
expending significant dollars to retrofit fielded units to meet its operational
requirements if the milestone decision authority allows a system to enter
production when the system has not met all of it COI requirements.

Director, Air Force Test and Evaluation Comments. The Director stated that
uniform policy for waivers may be good for DoD, but the Air Force nonconcurred



                                    22
with making all Military Department policies, particularly Air Force policies,
reflect the policies of the DOT&E. Further, he stated that DOT&E should first
contact the Military Departments to seek agreement before establishing new
policies. He believed that imposing a “one-size-fits-all” approach could
undermine attempts by the Under Secretary of Defense for Acquisition,
Technology, and Logistics to streamline acquisition using the evolutionary
acquisitions and time-phased requirements in the new DoD 5000-series.
However, the Director stated that the Air Force Test and Evaluation Directorate is
rewriting and updating Air Force Instruction 99-101, “Developmental Test and
Evaluation,” and Air Force Instruction 99-102, “Operational Test and
Evaluation.” For the complete text of the Director’s comments, see the
Management Comments section of the report.

Audit Response. Without consistent and updated waiver-and-limitation
terminology and procedures for deferral of testing, the Military Departments’ use
of test waivers will continue to be inconsistent with OSD policy and could affect
the milestone decision makers’ ability to make fully informed decisions before
systems enter LRIP and full-rate production. The establishment of consistent
terminology and procedures by the Military Departments should not affect using
an evolutionary acquisition strategy. Conversely, the consistent terminology and
procedures should strengthen the use of an evolutionary acquisition strategy by
ensuring that systems meet the operational requirements and COIs for each block
of the evolutionary acquisitions.

We redirected and revised the recommendation so that the OSD and the Military
Departments would jointly develop and implement guidance for test waivers and
deferrals.

Director, Operational Test and Evaluation Comments. Although not required
to comment, the Director agreed with the concept of the recommendation and
stated that DoD has already made progress in updating policies, practices, and
procedures for managing waivers and that our administrative recommendations
will help ensure proper management in that regard. For the complete text of the
Director’s comments, see the Management Comments section of the report.




                                    23
Appendix A. Scope and Methodology
   We reviewed documentation dated from June 1986 to January 2003. To
   accomplish the audit objective, we:

          •   discussed test and evaluation policies and procedures with personnel
              in the Office of the DOT&E, selected Military Department program
              offices, and operational test and evaluation organizations;

          •   assessed whether DOT&E and the Military Departments analyzed test
              and evaluation waiver in accordance with DoD and Military
              Department policy concerning critical operational issues and
              operational testing for acquisition programs;

          •   reviewed test reports that Military Department operational test and
              evaluation organizations issued for selected acquisition programs;

          •   reviewed approved requests for test and evaluation waivers to
              determine the effect on critical operational issues;

          •   reviewed TEMPs, including associated appendixes and attachments,
              Military Department developmental test reports, program budgets, and
              detailed program schedules for selected acquisition programs;

          •   identified the roles of the Office of the DOT&E and appropriate
              Military Department oversight groups in the DoD test and evaluation
              waiver process; and

          •   determined the role of the Institute for Defense Analyses in the test
              and evaluation waiver process.

   To perform the audit, we contacted the Office of the DOT&E and the testing
   organizations of the Military Departments to obtain a list of all programs for
   which they maintained oversight that had waivers issued from 1998 through May
   2002. The Office of the DOT&E provided a list of 11 programs that were issued
   waivers during the designated period. The programs were in various phases of
   the acquisition process and are described in Appendix D. The 11 programs
   reviewed were:

          •   the Army Javelin, the Patriot Advanced Capability-3, and the Tactical
              Unmanned Aerial Vehicle;

          •   the Navy Cooperative Engagement Capability, the F/A-18E/F Super
              Hornet, the Joint Stand-Off Weapon, and the V-22 Osprey; and

          •   the Air Force F-15 Tactical Electronic Warfare System, the Fighter
              Data Link; the Joint Direct Attack Munition, and the Predator
              Unmanned Aerial Vehicle.


                                       24
    We reviewed the 11 programs that the Office of DOT&E identified and obtained
    information for the F/A-18E/F Super Hornet and the V-22 Osprey from prior
    General Accounting Office and Inspector General of the Department of Defense
    reports. The Navy was the only Military Department that reported having
    processed waivers; however, it was unable to provide a list of those waivers. The
    Army and Air Force indicated that the programs for which they provided
    oversight had not issued waivers for the period reviewed. Our review of those
    11 programs indicated that 8 of the respective program offices entered initial
    operational test and evaluation with deficiencies and postponed testing and
    evaluation that affected the resolution of one or more COIs for operational
    effectiveness or operational suitability. The following are the eight programs:

           •   the Army Javelin, the Patriot Advanced Capability-3, and the Tactical
               Unmanned Aerial Vehicle;
           •   the Navy F/A-18E/F Super Hornet and the V-22 Osprey; and

           •   the Air Force F-15 Tactical Electronic Warfare System, the Fighter
               Data Link, and the Predator Unmanned Aerial Vehicle.

    We performed this audit from June 2001 through February 2003 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Weapon Systems Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003,
    acquisition managers are to use program cost, schedule, and performance
    parameters as control objectives to implement the requirements of DoD
    Directive 5010.38. Accordingly, we limited our review to management controls
    directly related to the waivers of test and evaluation requirements. We did not
    assess management’s self-evaluation of those controls.

    Adequacy of Management Controls. The management controls were in place
    for review and approval of waivers; however, the Military Departments and the
    milestone decision authorities were not using the controls to ensure that DoD


                                        25
    testers addressed COIs that had waived tests, or other limitations, before the
    milestone decision authorities approved a weapon system for full-rate production.
    Implementation of Recommendations A.1. and A.2. will ensure that DoD testers
    address COIs that have waived tests, or other limitations, before a weapon system
    is approved for full-rate production.

Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector General
    of the Department of Defense have issued reports that reference DoD test waivers
    and limitations. Unrestricted General Accounting Office and Inspector General of
    the Department of Defense reports can be accessed at http://www.gao.gov and
    http://www.dodig.osd.mil/audit/reports, respectively.

    General Accounting Office (GAO)
           GAO Report No. NSIAD-98-13, “Navy Aviation: V-22 Cost and
           Capability to Meet Requirements are yet to be Determined,” October 1997

           GAO Report No. NSIAD-00-199, “Best Practices: A More Constructive
           Test Approach is Key to Better Weapon System Outcomes,” July 2000

           GAO Report No. NSIAD-98-61, “Navy Aviation: F/A-18E/F
           Development and Production Issues,” March 1998

    Inspector General of the Department of Defense (IG DoD)
           IG DoD Report No. D-2000-174, “V-22 Osprey Joint Advanced Vertical
           Aircraft,” August 15, 2000

           IG DoD Report No. 99-205, “Operational Testing and Evaluation of the
           F/A-18E/F Super Hornet,” July 7, 1999




                                       26
Appendix B. Glossary
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   applicable procedures. The acquisition categories consist of I, major Defense
   acquisition programs; IA, major automated information systems; II, major
   systems; and III, all other acquisition programs. Acquisition Category I programs
   have two subcategories: ID and IC. Acquisition IA programs also have two
   subcategories: IAM and IAC.

   Availability. Availability is a measure of the degree to which an item is in an
   operable state and can be committed at the start of a mission when the mission is
   called for at an unknown (random) point in time.

   Compatibility. Compatibility is the capability of two or more items or
   components of equipment or material to exist or function in the same system or
   environment without mutual interference.

   Critical Operational Issue. A critical operational issue is an issue of operational
   effectiveness or operational suitability (not parameters, objectives, or thresholds),
   or both, that must be examined in operational test and evaluation to determine the
   system’s capability to perform its mission. A critical operational issue is
   normally phrased as a question that must be answered to properly evaluate
   operational effectiveness or operational suitability.

   Follow-On Operational Test and Evaluation. Follow-on operational test and
   evaluation is test and evaluation that is necessary during and after the production
   period to refine the estimates made during operational test and evaluation, to
   evaluate changes, and to reevaluate the system to ensure that it continues to meet
   operational needs and retains its effectiveness in a new environment or against a
   new threat.

   Human Factor. A human factor is the systematic application of relevant
   information about human abilities, characteristics, behavior, motivation, and
   performance. It includes principles and applications in the areas of human
   engineering, personnel selection, training, life support, job performance aids, and
   human performance evaluation.

   Initial Operational Capability. Initial operational capability is the first
   attainment of the capability to effectively employ a weapon, item of equipment,
   or system of approved specific characteristics with the appropriate number, type,
   and mix of trained and equipped personnel necessary to operate, maintain, and
   support the system. Initial operational capability is normally defined in the
   operational requirements document.

   Initial Operational Test and Evaluation. Initial operational test and evaluation
   is an operational test and evaluation conducted on production, or production



                                        27
representative articles, to determine whether systems are operationally effective and
suitable, and which supports the decision to proceed beyond LRIP.

Interoperability. Interoperability is the ability of systems, units, or forces to
provide services to or accept services from other systems, units, or forces and to
use the services so exchanged to operate effectively together.

Key Performance Parameters. Key performance parameters are capabilities or
characteristics so significant that failure to meet the threshold or minimum
acceptable value can be cause for the concept or system selected to be reevaluated
or the program to be reassessed or terminated.

Limited User Test. A limited user test is any type of research, development, test
and evaluation funded user test conducted that does not address all of the
effectiveness, suitability, and survivability issues and is therefore limited in
comparison to an initial operational test that must address all effectiveness,
suitability, and survivability issues.

Logistics Supportability. Logistics supportability is the degree of ease to which
system design characteristics and planned logistics resources (including the
logistics support elements) allow for meeting system availability and wartime
usage requirements.

Low-Rate Initial Production. Low-rate initial production (LRIP) establishes an
initial production base for the system, permits an orderly production-rate increase
sufficient to lead to a smooth transition to full-rate production, and provides
production representative articles for initial operational test and evaluation and
full-up live fire testing. This work effort concludes with a full-rate production
decision review to authorize full-rate production and deployment.

Maintainability. Maintainability is the ability of an item to be retained in, or
restored to, a specified condition when maintenance is performed by personnel
having specified skill levels, using prescribed procedures and resources, at each
prescribed level of maintenance and repair.

Major System. A major system is a combination of elements that function
together to produce the capabilities required to fulfill a mission need, including
hardware, equipment, software, or any combination thereof, but excluding
construction or other improvements to real property. A system will be considered
a major system if it is estimated by the DoD Component Head to require an
eventual total expenditure for research, development, test, and evaluation of more
than $140 million in FY 2000 constant dollars, or for procurement of more than
$660 million in FY 2000 constant dollars, or is designated as major by the DoD
Component Head. Major systems are synonymous with Acquisition Category II
programs.

Operational Effectiveness. Operational effectiveness is the overall degree of
mission accomplishment of a system when used by representative personnel in the
environment planned or expected, such as natural, electronic, or threat, for
operational employment of the system considering organization; doctrine; tactics;


                                      28
survivability; vulnerability; and threat, including countermeasures, initial nuclear
weapons effects, nuclear, biological, and chemical contamination threats.

Operational Requirements Document. An operational requirements document
(ORD) is a formatted statement, prepared by the user or user’s representative,
containing performance and related operational performance parameters for the
proposed concept or system.

Operational Suitability. Operational suitability is the degree to which a system
can be placed satisfactorily in field use with consideration being given to
availability, compatibility, transportability, interoperability, reliability, wartime
usage rates, maintainability, safety, human factors, manpower supportability,
logistic supportability, natural environmental effects and impacts, documentation,
and training requirements.
Program. A program is an acquisition effort funded by research, development,
test and evaluation or procurement appropriations, or both, with the express
objective of providing a new or improved capability in response to a stated
mission need or deficiency.

Program Management Directive. The program management directive is an
Air Force document, required for all Air Force acquisition programs, that directs
acquisition responsibilities to the appropriate Air Force major commands,
agencies, program executive offices, or designated acquisition commander.

Reliability. Reliability is the ability of a system and its parts to perform its
mission without failure, degradation, or demand on the support system.

Safety. Safety is the freedom from conditions that can cause death, injury,
occupational illness, damage/loss of equipment or property, or damage to the
environment.

Test and Evaluation Master Plan. The test and evaluation master plan (TEMP)
documents the overall structure and objectives of the test and evaluation program.
It provides a framework within which to generate detailed test and evaluation
plans and it documents schedule and resource implications associated with the
test and evaluation program. The TEMP identifies the necessary developmental
test and evaluation, operational test and evaluation, and live fire test and
evaluation activities. Further, the TEMP relates program schedule, test
management strategy and structure, and required resources to critical operational
issues; critical technical parameters; objectives and thresholds documented in the
ORD; evaluation criteria; and milestone decision points.

Third-Party Targeting. According to DOT&E representatives, third-party
targeting allows a DoD asset other than the asset dropping the bomb (a third
party) to control the coordinates for the target. Third-party targeting allows
targeting while the aircraft is in the middle of its operations, unlike preplanned
targeting, which requires setting the targeting coordinates before the mission.
Third-party targeting provides for shorter update and quicker ability to change the
target.


                                      29
Waiver. According to DOT&E, a waiver is a deferral of an operational testing
requirement and does not eliminate the requirement for subsequent testing.




                                  30
Appendix C. Test and Evaluation Policy
   Deputy Secretary of Defense Memorandum, “Defense Acquisition,” October 30,
   2002; Army Regulation 73-1, “Test and Evaluation Policy,” January 7, 2002;
   Army Pamphlet 73-2, “Test and Evaluation Master Plan Procedures and
   Guidelines,” October 11, 1996, Secretary of the Navy Instruction 5000.2B,
   “Implementation of Mandatory Procedures for Major and Non-Major Defense
   Acquisition Programs and Major and Non-Major Information Technology
   Acquisition Programs,” December 6, 1996; Air Force Instruction 99-102,
   “Operational Test and Evaluation,” July 1, 1998; Air Force Operational Test and
   Evaluation Center Instruction 99-102, “Operational Test and Evaluation,”
   January 20, 2000; and Air Force Manual 63-119, “Certification of System
   Readiness for Dedicated Operational Test and Evaluation,” February 22, 1995,
   provide policy concerning operational testing and critical operational issues for
   acquisition programs.

   DoD Policy. On October 30, 2002, the Deputy Secretary of Defense issued a
   memorandum, “Defense Acquisition,” that canceled DoD Regulation 5000.2-R,
   “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
   Major Automated Information System (MAIS) Acquisition Programs,”
   April 5, 2002, and replaced it with interim guidance in the form of attachments to
   the memorandum. The interim guidance requires Military Departments to
   complete operational testing and evaluation before the system can proceed
   beyond the LRIP decision. Operational testing and evaluation is to determine the
   operational effectiveness and suitability of a system; determine whether the
   thresholds and objectives in the approved operational requirements document and
   the critical operational issues have been satisfied; and assess the effects of
   demonstrated system performance on combat operations. In addition, the
   independent operational test agencies are required to use production or
   production-representative articles for the dedicated phase of operational test and
   evaluation that support the full-rate production decision. The interim guidance
   also states that all developmental test and evaluation will identify technical
   capabilities and limitations. In addition to identifying test limitations, the
   developing agency must formally certify the system as ready for the dedicated
   phase of operational test and evaluation.

   Further, the interim guidance states that major Defense acquisition programs may
   not proceed beyond LRIP without approval by the milestone decision authority.
   The decision to continue beyond LRIP to full-rate production requires completion
   of initial operational test and evaluation and the submission of the beyond LRIP
   and live-fire test and evaluation reports, as applicable, to Congress, the Secretary
   of Defense, and the Under Secretary of Defense for Acquisition, Technology, and
   Logistics.

   The DOT&E issued guidance on August 3, 2001, that directed Military
   Department testers not to issue waivers or deferrals that would prevent a complete




                                        31
evaluation of operational requirements. The DOT&E guidance also states that
test requirements that have been waived should be considered failed unless the
ORD requirement is changed.

Army Policy. Army Regulation 73-1 defines critical operational issues and
criteria as the operational effectiveness, suitability, and survivability concerns that
must be examined in operational test and evaluation to determine the degree to
which the system is capable of performing its mission. COIs are the key decision
maker operational concerns or issues with standards of performance that must be
answered by the system evaluation to determine if the system is ready to enter
full-rate production. Further, COIs are associated with scope, criteria, and
rationale. A breach of a criterion is reason for the milestone decision authority to
delay entry of the system into full-rate production unless other evidence of
acceptable system operational effectiveness and suitability is provided. Further,
the Regulation states that testing specified in the approved TEMP must be
conducted unless the program manager or other appropriate official submits a
written request for waiver and the TEMP approval authority approves the waiver
request.

The Regulation also states that the approval of testing waivers will depend on the
availability and acceptability of relevant data and information and will not negate
the requirement for independent system evaluation. For those tests for which
waivers were granted for reasons other than availability of data, the program
manager is to expand production testing or follow-on operational testing to
address those operational requirements not previously tested.

The Regulation further states that testing may be delayed when circumstances
warrant. Test delays can be issued at the start of testing to address evaluation
issues when the tester identifies a problem that would affect the completeness of
the data being collected. Further, the Regulation states that tests will be delayed
when it is apparent that the system has little chance of successfully attaining
critical technical parameters, satisfying critical operational criteria, or resolving
deficiencies before the start of test.

Army Pamphlet 73-2 requires the approved TEMP to state the test limitations that
may affect the resolution of critical operational issues; the impact of those
limitations, such as the effects on COIs; and the ability to formulate conclusions
regarding operational effectiveness and operational suitability.

Navy Policy. Secretary of the Navy Instruction 5000.2B states that operational
test and evaluation is subdivided into initial operational test and evaluation and
follow-on operational test and evaluation. Initial operational test and evaluation
is all operational test and evaluation up to and including the completion of
operational evaluation. For each program, the COMOPTEVFOR is to develop
critical operational issues and publish them in the TEMP. The critical operational
issues are to be linked to the Chief of Naval Operations requirements established
in the operational requirements document. For programs requiring joint
interoperability, joint interoperability critical operational issues must be
established to address effectiveness during operational testing. Further, the
Instruction provides guidance for processing waivers to defer testing of the
operational requirements.

                                      32
Navy waivers consist of waivers from compliance with the criteria for
certification of readiness for operational test and evaluation and waivers for
deviations from TEMP testing requirements. The program manager requests a
test waiver in an operational test and evaluation certification message. If a waiver
request is anticipated, the program manager is to coordinate the waiver with the
program sponsor; the Test and Evaluation Division, Office of the Director of
Navy Test and Evaluation and Technology Requirements; and the
COMOPTEVFOR before an operational test and readiness review. The Director,
Navy Test and Evaluation and Technology Requirements approves waiver
requests, as appropriate, in coordination with the COMOPTEVFOR; the Deputy
Chief of Naval Operations (Logistics); the Deputy Chief of Naval Operations
(Resources, Warfare Requirements, and Assessments); and the program sponsor.

The Navy Instruction further states that approval of a test waiver request does not
alter the test requirement. The program manager is still required to test the
waived requirement in subsequent operational testing. A waiver may result in
limitations to the scope of testing that preclude the COMOPTEVFOR from fully
resolving all COIs. The Office of the COMOPTEVFOR is not to assess waived
requirements in its analysis to resolve COIs, but may comment on the waived
requirements in the applicable test report.

Air Force Policy. Air Force Instruction 99-102 requires initial operational test
and evaluation to determine the operational effectiveness and suitability of
systems undergoing research and development efforts. Initial operational test and
evaluation supports decisions of the milestone decision authorities to authorize
low-rate initial production and full-rate production, and declaration of initial
operational capability. Further, the Instruction requires a dedicated phase of
initial operational test and evaluation for Acquisition Category I and II programs,
and is strongly recommended for all others. The Instruction also requires the
initial operational test and evaluation to completely and unambiguously answer
all critical operational issues as thoroughly as possible, and not defer testing into
follow-on operational test and evaluation unless unavoidable. Additionally, the
Instruction requires that all approved operational test and evaluation waivers be
documented in the TEMP.

To waive or modify fundamental provisions in operational test and evaluation
plans, the Instruction requires the system program manager to prepare a request.
With the user and developer concurrence, the system program manager is to
submit the request through the Air Force Operational Test and Evaluation Center
to the Air Force Test and Evaluation Directorate. The system program manager
and the system’s program element monitor are to document any approved
operational test and evaluation waivers in the TEMP and the program management
directive, respectively.

Air Force Manual 63-119 requires a waived requirement to be tested in
subsequent operational test and evaluations or the user must change the ORD
requirement. Before initial operational test and evaluation, the system program
manager is to list any required waivers or areas excluded from the test and
evaluation, the rationale, and future plans to clear the waivers, and provide a
summary of the list to the operational tester. In response, the operational tester is


                                     33
to indicate whether to proceed with the test and is to discuss the effects of test
limitations and test waivers on resolving operational test issues in the test report.

Air Force Instruction 99-102 states that the final operational test and evaluation
report must contain descriptions of test methods and limitations, definitive test
results, and system capabilities and limitations as measured against the ORD.




                                      34
Appendix D. Description of Major Defense
            Systems Reviewed

Department of the Army
    Javelin. The Javelin, an Acquisition Category IC program, is a man-portable,
    fire-and-forget, medium anti-tank missile employed by dismounted troops to
    defeat current and future threat armored combat vehicles out to 2,500 meters. The
    Javelin attacks most targets from the top to defeat explosive reactive armor; it
    also has the capability, in the direct fire mode, to attack targets under cover or
    those that would be unreachable by top attack. The Javelin consists of a missile
    in a disposable launch tube and a reusable Command Launch Unit, with a trigger
    mechanism and day/night sighting device for surveillance, target acquisition, and
    built-in-test capabilities. The missile locks onto the target before launch using an
    infrared focal plane array and on-board processing, which also tracks the target
    and guides the missile to the target after launch. A full-up system weighs less
    than 50 pounds.

    The Javelin includes a training system consisting of three devices: the Missile
    Simulation Round, the Basic Skills Trainer, and the Field Tactical Trainer. The
    Missile Simulation Round is a form, fit, and weight, but not functional,
    representation of the missile in its launch tube and is used to familiarize the
    gunner with the physical characteristics of the Javelin. The Basic Skills Trainer is
    used in classrooms to develop the basic tactical and technical gunnery skills to
    operate the Javelin. The Field Tactical Trainer refines the gunner’s abilities and
    enables the gunner to participate in range training and force-on-force exercises.

    Patriot Advanced Capability-3. The Patriot, an Acquisition Category ID
    program, is an air-defense that uses guided missiles to engage and destroy
    air-breathing targets and tactical ballistic missiles. The Patriot Advanced
    Capability-3 is the latest version. The latest version will include a multi-function
    radar, an engagement control station, and communications relay groups for
    communicating with remote launchers and the battalion headquarters.

    Tactical Unmanned Aerial Vehicle. The Tactical Unmanned Aerial Vehicle
    system, an Acquisition Category II program, will provide the ground maneuver
    brigade commander with a day and night reconnaissance, surveillance, target
    acquisition, and battle damage assessment system. The Tactical Unmanned
    Aerial Vehicle provides the commander with enhanced situational awareness, a
    target acquisition capability, the ability to conduct battle damage assessment, and
    enhanced battle management capabilities. Those capabilities will provide the
    commander with dominant situational awareness and allow him to maneuver to
    points of positional advantage with speed and precision to conduct decisive
    operations. The Tactical Unmanned Aerial Vehicle, in conjunction with other
    systems, will provide the tactical commander with information superiority
    contributing to the full-dimensional protection of his force and precision
    engagement of the enemy.


                                         35
Department of the Navy
    Cooperative Engagement Capability. The Cooperative Engagement Capability,
    an Acquisition Category ID program, is a system of hardware and software that
    allows the sharing of radar data on air targets among ships. Radar data from
    individual ships of a Battle Group is transmitted to other ships in the group
    through a line of sight data distribution system. Each ship uses identical data
    processing algorithms resident in its Cooperative Engagement Processor,
    resulting in each ship having essentially the same display of track information on
    aircraft and missiles. Accordingly, an individual ship can launch an anti-air
    missile at a threat aircraft or anti-ship cruise missile within its engagement
    envelope, based on radar data relayed to it by another ship.

    F/A-18E/F Super Hornet. The FA-18E/F Super Hornet, an Acquisition
    Category IC program, is a multi-mission, day/night strike fighter aircraft designed
    to add to the capability and tactical flexibility of the Carrier Air Wing through
    improvements in the FA-18C/D's range, endurance, and carrier bring-back
    payload and weapons payload. The FA-18E/F features a larger airframe with
    more fuel capacity, two additional store stations and increased survivability with
    additional capacity for capability upgrades and growth. This aircraft will also
    serve as an airborne tanker, further improving Battle Group flexibility and
    mobility.

    Joint Stand-Off Weapon. The Joint Stand-Off Weapon, an Acquisition
    Category ID program, is a family of efficient 1,000-pound class, air-to-surface
    glide weapons that provide for low observability, multiple kills per pass,
    preplanned missions, standoff precision engagement, and launch and leave
    capability against a wide range of targets during day/night, all weather conditions.
    The system is employed as a force multiplier in a joint warfare environment for
    interdiction of fixed, relocatable and mobile, light and heavy armored targets,
    massed mobile armored targets, anti-personnel, and air-to-surface threats. The
    system primarily functions in a preplanned mission mode where the system can
    store up to eight targets; however, the system is to allow pilot manual inputs as
    well as third-party targeting. The weapon will be land and carrier based.

    V-22 Osprey. The V-22 Osprey, an Acquisition Category ID program, is a
    tilt-rotor, vertical take-off and landing, multi-mission aircraft developed to fill
    multi-Service combat operational requirements. The MV-22 will replace the
    Marine Corps assault helicopters in the medium lift category (CH-46E and
    CH-53D), contributing to the dominant maneuver of the Marine landing force, as
    well as supporting focused logistics in the days following commencement of an
    amphibious operation. The Air Force requires the CV-22 to provide a long-range
    vertical take-off and landing insertion and extraction capability and to supplement
    the Special Operations Forces MC-130 aircraft in precision engagement. The
    tilt-rotor design combines the vertical flight capabilities of a helicopter with the
    speed and range of a turboprop airplane and permits aerial refueling and
    worldwide self-deployment.




                                         36
Department of the Air Force
    F-15 Tactical Electronic Warfare System. The F-15 Tactical Electronic
    Warfare System Band 1.5 is an Acquisition Category III program. The
    acquisition program contributes to full-dimensional protection by improving
    individual F-15 aircraft probability of survival through improved air crew
    situation awareness of the radar-guided threat environment, cueing both active
    and passive countermeasures in the Band 1.5 frequency spectrum, and adding a
    feature for jamming optimization against specific threats. The Tactical Electronic
    Warfare System provides electronic detection and identification of surface and
    airborne threats. In addition, it allows for activation of appropriate
    countermeasures, including electronic jamming and dispensing of expendables
    such as chaff and flares.

    Fighter Data Link. The Fighter Data Link, an Acquisition Category ID program,
    provides Link 16 data link networking with other Link 16 capable fighter aircraft,
    command, and control systems to support synchronized operations. Link 16 is a
    data link with a common message standard and robust jam-resistant
    communications waveform providing Joint and Multinational interoperability to
    enable forces to operate effectively together.

    Joint Direct Attack Munition. The Joint Direct Attack Munition, an
    Acquisition Category ID program, is a low cost, autonomously controlled
    guidance kit for the Air Force and Navy 2,000-pound general-purpose bombs and
    the 1,000-pound bomb. The Air Force inventory of bombs will be configured
    with Joint Direct Attack Munition guidance kits and accessories. Actual weapon
    launch occurs when the aircrew has flown the aircraft into the weapon launch
    acceptability region. The launch acceptability region is the three-dimensional
    area in space in which the weapon may be released to fly directly to a selected
    target on a pre-determined bearing. The Joint Direct Attack Munition is designed
    to be employed by a variety of fighter/attack and bomber aircraft, allowing
    precision engagement from all altitudes under adverse environmental conditions.

    Predator Unmanned Aerial Vehicle. The Predator Unmanned Aerial Vehicle
    System, an Acquisition Category II program, is a theater asset that is to provide
    cued and non-cued reconnaissance, surveillance, and targeting capability. The
    Predator system comprises both air and ground segments. The Predator began as
    an advanced concept technology demonstration program that transitioned to an
    Acquisition Category II program.




                                        37
Appendix E. Critical Operational Issues not
            Resolved Because of Approved Test
            Waivers or Test Limitations
    This appendix shows operational effectiveness or operational suitability
    categories and the associated critical operational issues that could not be resolved
    during operational testing before system full-rate production decisions because of
    waivers and other test deferrals for the eight DoD weapon systems affected by
    waivers.

Department of the Army
    Javelin
                          Operational Suitability Issues

    Critical Operational Issue (Reliability). Is the Javelin operationally suitable
    when employing existing doctrine: manpower and personnel integration,
    reliability, availability, and maintainability, and logistic supportability concepts?
    The Javelin entered initial operational test and evaluation with limitations
    associated with reliability. Engineering and manufacturing development testers
    estimated that the field tactical trainer (range) would achieve 25 hours, rather than
    the 100 hours required. The system completed initial operational test and
    evaluation in December 1993, the results of which indicated that the system had
    unresolved operational suitability issues related to the reliability parameters
    prescribed for system maturity; specifically, the training devices were unreliable.
    According to the Deputy Under Secretary of the Army (Operations Research), the
    U.S. Army Infantry reevaluated the requirements in 1994 and reduced the
    100-hour requirement to 50 hours that should be attained at the time of system
    maturity, 3 years after the full-rate production decision. The Deputy also stated
    that the requirement for the full-rate production decision was 32 hours as shown
    in the System Evaluation Report, March 27, 1997. The Army operational testers
    resolved the operational suitability issues after the full-rate production decision.

    Patriot Advanced Capabilities (PAC-3) Program Office
                        Operational Effectiveness Issues

    Critical Operational Issue. Does the Patriot Advanced Capability-3 enhance the
    effectiveness of the Patriot system? The testers were not able to resolve the
    operational effectiveness COI because the Army deferred test requirements:

           •   for the missile to effectively destroy a target and counteract
               countermeasures,

           •   for the ground system to distinguish between targets, and

                                         38
       •   for the system to operate in all required environments.

In consideration of performance problems identified during limited user testing,
the Program Manager obtained the approval of the Joint Requirements Oversight
Council to defer those test requirements as part of an evolutionary development
program after the planned full-rate production decision. As a consequence, the
Army Test and Evaluation Command determined in the limited user tests
conducted before the LRIP decision that the Patriot Advanced Capability-3 had
limited operational effectiveness. Because the Joint Requirements Oversight
Council deferred those test requirements, the operational effectiveness COI will
not be fully resolved before the program proceeds beyond LRIP. To resolve the
deferred test requirements, the Program Office stated that the Army increased
funding for system development by approximately $90 million to demonstrate
those ORD requirements. During initial operational test and evaluation
conducted in 2002, the Army Test and Evaluation Command and the Director,
Operational Test and Evaluation, determined that the Patriot Advanced
Capability-3 was operationally effective with limitations.

                      Operational Suitability Issues

Critical Operational Issue. Can the PAC-3 be sustained in an operational
environment? During initial operational test and evaluation conducted in 2002,
the Army Test and Evaluation Command and DOT&E, determined that the Patriot
Advanced Capability-3 was operationally suitable with limitations, including
reliability and availability.

         Reliability – Limited user test revealed a number of PAC-3 system
reliability problems. The communications relay group mean time between critical
mission failure rate was seven times greater than allocated, and the engagement
control station mean time between critical mission failure rate was twice as large
as allocated. The routing logic radio interface units problems were the primary
reasons that the fire unit mean time between critical mission failure rate was
1.7 times greater than the requirement. The routing logic radio interface units and
data link terminals were major contributors to poor system reliability. The
“System Evaluation Report of the Patriot Advanced Capability-3 Initial
Operational Test and Evaluation,” indicated improvements for those issues,
however, the overall fire unit mean time between critical mission failure of
19.8 hours was less than threshold requirement of 21 hours.

        Availability - Specifics concerning limitations to availability are
classified and are not detailed in this report.

Tactical Unmanned Aerial Vehicle Program Office
The Tactical Unmanned Aerial Vehicle is a commercial off-the-shelf program
that did not undergo developmental testing. The Project Office certified the
system as ready for operational testing, given the following limitations.




                                     39
                    Operational Effectiveness Issues

Critical Operational Issues. The Tactical Unmanned Aerial Vehicle limitations
       to testing included two COIs concerning operational effectiveness.

       •   Does the Tactical Unmanned Aerial Vehicle system provide the
           commander timely and accurate reconnaissance, surveillance, and
           target acquisition information?

       •   Does the Tactical Unmanned Aerial Vehicle system provide adequate
           coverage of the ground maneuver brigade commander’s area of
           interest?

The Tactical Unmanned Aerial Vehicle program entered initial operational test
and evaluation with known limitations affecting the resolution of the operational
effectiveness COIs. For example, the ground control station was not compatible
with the tactical control system architecture because the tactical control system
was still in development. As a result, Army testers were not able to determine
whether interoperability characteristics of the vehicle met the ORD requirements.
The program manager and the users listed the test limitations in memorandums to
the Army testers instead of requesting waivers to testing the ORD requirement.
The Army plans to conduct the deferred test requirements during future
operational test and evaluation.

                         Operational Suitability Issues

Critical Operational Issue (Logistics Supportability). Does the Tactical
Unmanned Aerial Vehicle system meet the ground maneuver brigade
commander’s sustained combat requirements? The Tactical Unmanned Aerial
Vehicle Program Office deferred planned operational tests that affected the
resolution of the COI requiring the system to meet the ground maneuver brigade
commander’s sustained combat requirements. Specifically, the Tactical
Unmanned Aerial Vehicle Program Manager in a memorandum, “Initial Tactical
Unmanned Aerial Vehicle System Limitations for Initial Operational Test and
Evaluation (IOTE),” undated, limited the test and evaluation because testers could
not verify the supportability of the system when using heavy fuel. The ORD
objective requires the system to use only heavy fuel; however, the system
available for testing used motor gasoline, which meets the operational
requirement threshold, the minimal acceptable value necessary to satisfy the need.

According to DOT&E, even though the system used motor gasoline, the system
met the fuel requirement by meeting the threshold; however, the Army is
addressing supportability issues about being able to support a motor gasoline after
2005. After the planned full-rate production decision, the Army will conduct a
follow-on operational test and evaluation to test for the heavy fuel requirement.




                                    40
Department of the Navy

            F/A-18E/F Super Hornet
                                     Operational Effectiveness Issues

            Critical Operational Issues. The F/A-18E/F Super Hornet waivers included
            five COIs concerning operational effectiveness.

                     •    Airborne Tanker Platform. Will the F/A-18E/F function adequately
                          as an airborne tanker platform?

                     •    Air-To-Ground Sensors. Will the F/A-18E/F air-to-ground sensors be
                          effective in all mission areas including navigation, target detection,
                          target acquisition, target identification, target designation, target track,
                          and target surveillance against the current and projected threat in its
                          intended operating environment?

                     •    Air-To-Ground Weapons. Will the F/A-18E/F effectively employ
                          and support the full capability of all air-to-ground weapons it is
                          intended to carry against the current and projected threat in its intended
                          operating environment?

                     •    Air-To-Air Sensors. Will the F/A-18E/F effectively employ and
                          support the full capability of all air-to-air weapons it is intended to
                          carry against the current and projected threat aircraft in its intended
                          operating environment?

                     •    Mobility. Will the F/A-18E/F demonstrate adequate mobility to
                          conduct wartime operations from ashore or from an aircraft carrier?

            In consideration of performance problems identified during developmental testing,
            the program manager requested the following operational test waivers:

                     •    Lack of provisions for tanker lighting recognition.4
                     •    Excessive time to rebuild and expand mode image after aim-point
                          redesignation.

                     •    Inadequate targeting, forward-looking, infrared resolution and
                          magnification.

                     •    Targeting, forward-looking, infrared loss of autotrack and scene track
                          during maneuvering.



4
    Resolved after the full-rate production decision.


                                                        41
                     •    Insufficient air-to-ground radar, expand mode resolution.

                     •    Inadequate targeting, forward-looking, infrared autotrack range.

                     •    Scaling of radar presentation in “expand 2/3” does not permit precise
                          target designation.

                     •    No laser blanking to outboard weapons stations.

                     •    Insufficient duration of AIM-9 cooling capacity.4

                     •    Unsatisfactory automatic carrier-landing system.4



                                                             *




                                       Operational Suitability Issues

            Critical Operational Issue (Reliability). Will the reliability of the F/A-18E/F
            support completion of the aircraft’s mission? Based on reliability performance
            problems identified during developmental tests, the Program Executive Officer for
            Tactical Aircraft requested the following operational test waivers:

                     •    Unacceptable reliability of the fuel and air heat exchanger leak
                          detection system.2

                     •    Premature failure of the environmental bellows due to misalignment
                          during door installation.

                     •    ALE-50 system requires preflight power-up with weight-on-wheels.4
                     •    Inadequate secondary power system engine start fault isolation.2

                     •    AIM-9M sidewinder captive air training missile roller on assembly
                          in-flight failures.

                     •    Uncommanded map display format changes in one cockpit based on
                          map displays selected in other cockpit.

                     •    Undesirable inter-cockpit display format coupling.

4
    Resolved after the full-rate production decision.
*
    Deliberative process privilege data omitted.


                                                        42
                     •    Axle vertical loads encountered during catapult testing exceed
                          F/A-18E/F nose landing gear tire and wheel loads qualification limits.4

                     •    Inadequate reliability of the hydraulic drive unit.2

                     •    Delamination within composite surface layers of the horizontal
                          stabilator.

                     •    Engine stalls in maximum afterburner power while aircraft is
                          positioned in front of the jet blast deflector.4

                     •    Engine stalls during catapult stroke.4

                     •    Engine stator vane retainer rail failures.4
                     •    Unacceptable high failure rate of fuel cells.4

                     •    Poor reliability characteristics of the fuel/no air valve.4

                     •    High failure rate of the wing fuel cell channel injection plugs.4

                     •    AIM-7 forward lug failure in flight on station two.4

                     •    Pylon loads exceed design limit during maneuvering flight.4

                     •    Failure of memory unit data to automatically download.4

                     •    In-flight failure of LAU-127A/A while carrying captive air training
                          missile.4

                     •    Failure of the nose landing gear door forward hinge.

                     •    Failure of the main landing gear outboard door forward hinge.4

                     •    Broken fin retainer springs on the LAU-127A/A launcher.

                     •    Damage and loss of AAR-50 forward looking, infrared coolant access
                          door during flight.

                     •    Receiver saturation in engagements within-band forward quarter.

            Critical Operational Issue (Maintainability). Will the F/A-18E/F be
            maintainable by fleet personnel? Based on maintainability problems identified
            during developmental tests, the Program Executive Officer for Tactical Aircraft
            requested the following operational test waivers:




4
    Resolved after the full-rate production decision.


                                                        43
                     •    Configuration of the hydraulic bay 53 L/R does not provide sufficient
                          accessibility to hydraulic tube assemblies, which inhibits proper
                          torquing.4

                     •    Inadequate limits for engine high pressure compressor bladed disk
                          repair.

                     •    Wing tip LAU-127A/A damage caused during downloading of AIM-9
                          stores after flight.4

                     •    Inadequate environmental control system diagnostic capability.4

                     •    Excessive inspection requirements for AIM-120C on stations 2 and 10.4
                     •    LAU-127A/A loose screws.

                     •    Inadequate procedures for repeatable release holdback bar release load
                          calibration.4

            Critical Operational Issue (Compatibility). Will the F/A-18E/F be compatible
            with its operating environment? Based on compatibility problems identified
            during developmental testing, the Program Executive Officer for Tactical Aircraft
            requested the following operational test waivers:

                     •    Poor F/A-18F intercommunication system mechanization.4

                     •    No provision for reception on one radio while transmitting on the
                          other.4

                     •    No provision for concurrent transmission (pilot and weapon system
                          operator).4

                     •    ALR-67 V(3) is incompatible with the tactical aircrew combat training
                          system.4

            Critical Operational Issue (Safety). Will the F/A-18E/F be safe to operate and
            maintain? Based on safety problems identified during developmental tests, the
            Program Executive Officer for Tactical Aircraft requested the following
            operational test waivers:

                     •    Potential for personnel injury due to location of hydraulic fluid level
                          indicator.

                     •    Erroneous velocity vector performance without aid from the global
                          positioning system.

                     •    Inadequate attitude reference indication during night carrier vessel
                          approach.4

4
    Resolved after the full-rate production decision.


                                                        44
            Critical Operational Issue (Human Factors). Will the human factors aspects of
            the F/A-18E/F support completion of the aircraft’s mission? The Program
            Executive Officer for Tactical Aircraft requested and the Director of Navy Test
            and Evaluation and Technology Requirements approved a test waiver for the
            ALR-67 power switch on the center pedestal because it was not within reach of the
            pilot while he was strapped in the seat.



                                                             *




            V-22 Osprey
                                     Operational Effectiveness Issues

            Critical Operational Issue (Assault Support). Will the V-22 demonstrate the
            operational performance necessary to effectively execute assault support
            operations in its intended environment? Because of deficiencies identified during
            developmental testing, the Director of Navy Test and Evaluation and Technology
            Requirements approved the following operational test waivers:

                     •    Inadequate cargo handling system.

                     •    Avionics navigation system does not provide data other than World
                          Geodetic System.

                     •    Exterior lighting for formation flight is inadequate.

                     •    External load interferes with radar altimeter.

                     •    Lower cabin door operation during hover operations.

                     •    Unable to fastrope out of cabin door.

            Further, the Director of Navy Test and Evaluation and Technology Requirements
            approved an operational test waiver for maximum short take off (shipboard)
            48,500 pounds, rather than mission profile specific weight because the capability




4
    Resolved after the full-rate production decision.
*
    Deliberative process privilege data omitted.


                                                        45
had not been tested developmentally before operational evaluation, according to
the Deputy Assistant Secretary of the Navy (Research, Development, Test and
Evaluation).

The Director of Navy Test and Evaluation and Technology Requirements also
approved an operational test waiver for the defensive weapon system because the
system was still under development and had not been fielded before the
operational test and evaluation, according to the Deputy Assistant Secretary of the
Navy (Research, Development, Test and Evaluation).

Critical Operational Issue (Self-Deployment). Will the V-22 demonstrate the
operational performance necessary to effectively self-deploy in its intended
operating environment? Because of performance problems identified during
developmental testing, the Director of Navy Test and Evaluation and Technology
Requirements approved the following operational test waivers:

       •   Aircraft was not cleared to refuel from a KC-135 tanker.

       •   Aircraft was not cleared for aerial refueling.

In addition, the Director of Navy Test and Evaluation and Technology
Requirements approved an operational test waiver for crashworthy auxiliary fuel
tanks because the system was still under development and had not been fielded
before the operational test and evaluation, according to the Deputy Assistant
Secretary of the Navy (Research, Development, Test and Evaluation).

Critical Operational Issue (Survivability). Will the susceptibility and
vulnerability characteristics of the V-22 allow the successful completion of its
mission in its intended operating environment? Because of performance problems
identified during developmental testing, the Director of Navy Test and Evaluation
and Technology Requirements approved the following operational test waivers.

       •   AN/APR-39A(V)2 degraded Band 2 analysis of alternatives.

       •   Defensive weapon system not available for test.

Further, the Director of Navy Test and Evaluation and Technology Requirements
approved an operational test waiver for the Aircraft being cleared for air combat
maneuveringbecause the capability had not been tested developmentally before
operational evaluation, according to the Deputy Assistant Secretary of the Navy
(Research, Development, Test and Evaluation).

In addition, the Director of Navy Test and Evaluation and Technology
Requirements approved an operational test waiver for crashworthy auxiliary fuel
tanks because the system was still under development and had not been fielded
before the operational test and evaluation, according to the Deputy Assistant
Secretary of the Navy (Research, Development, Test and Evaluation).




                                     46
                                                        *




                                      Operational Suitability Issues

            Critical Operational Issue (Reliability, Availability, and Maintainability).
            Will the V-22 be reliable in its intended operating environment? Will the
            availability of the V-22 support its mission? Will the V-22 be maintainable in its
            intended operating environment? Because of performance problems identified
            during developmental testing, the Director of Navy Test and Evaluation and
            Technology Requirements approved an operational test waiver of the V-22 mean
            time between failure and false alarm rate technical thresholds.

            Critical Operational Issue (Compatibility). Will the V-22 be compatible with
            its operating environment? Because of performance problems identified during
            developmental testing, the Director of Navy Test and Evaluation and Technology
            Requirements approved the following operational test waivers.

                     •   Inadequate cockpit/cabin nuclear biological and chemical overpressure
                         protection.

                     •   Unable to align Light Weight Inertial Navigation System without
                         Global Positioning System signal.

            In addition, the Director of Navy Test and Evaluation and Technology
            Requirements approved an operational test waiver for the aircraft to operate in
            icing conditions because the system was still under development and had not been
            fielded before the operational test and evaluation, according to the Deputy
            Assistant Secretary of the Navy (Research, Development, Test and Evaluation).

            Critical Operational Issue (Safety). Will the V-22 be safe to operate and
            maintain? Because of performance problems identified during developmental
            testing, the Director of Navy Test and Evaluation and Technology Requirements
            approved the following operational test waivers.

                     •   Excessive force required to disconnect the intercommunication system.

                     •   Pilot and copilot seats incorporate nonqualified inertial reels.

                     •   Autorotative descent cannot be maintained while attempting engine air
                         start.

            In addition, the Director of Navy Test and Evaluation and Technology
            Requirements approved an operational test waiver for the ground collision
            avoidance and warning system because the system was still under development


*
    Deliberative process privilege data omitted.


                                                   47
            and had not been fielded before the operational test and evaluation, according to
            the Deputy Assistant Secretary of the Navy (Research, Development, Test and
            Evaluation).


                                                        *




Department of the Air Force

            F-15 Tactical Electronic Warfare System
                                      Operational Suitability Issues

            Critical Operational Issue (Reliability and Availability). Does the operational
            readiness of the Band 1.5 system support F-15E mission requirements? The
            Air Force will depend on the capability of the built-in-test of the F-15 Tactical
            Electronic Warfare System (the System) to identify faults and take corrective
            action in a timely manner. The May 2000 TEMP did not show any test limitations
            associated with the built-in-test; however, it did show that the System had an open
            deficiency for an excessive built-in-test false alarm rate. Although the deficiency
            existed, the Air Force conducted initial operational test and evaluation in FY 2000
            and determined that the built-in-test false alarm rate was 65 percent, compared to
            the required built-in-test false alarm rate of less than 20 percent. The excessive
            false alarm rate caused numerous unwarranted maintenance actions and distracted
            the air crew’s attention from primary mission functions. Even with the excessive
            false alarm rate, the Air Force approved the system for production because the
            System provided a greater capability, according to DOT&E representatives. In
            addition, DOT&E approved the TEMP and operational test and evaluation plan for
            the Band 1.5 system, both of which addressed the false alarm rate and required
            future testing, according to Air Force Test and Evaluation Directorate
            representatives. The representatives also stated that the Air Force submitted plans
            to DOT&E to correct the false alarm rate problems in the next increment,
            Band 5.0.

            Fighter Data Link
                                      Operational Suitability Issues

            Critical Operational Issue (Reliability). Is the Fighter Data Link terminal
            suitable when integrated in an F-15? The operational test report included a test
            limitation related to the built-in-test functionality. During initial operational test
            and evaluation, inadequate flight hours were available to evaluate the Fighter Data
            Link built-in-test and logistics supportability. Accordingly, Air Force operational

*
    Deliberative process privilege data omitted.


                                                   48
testers did not fully test mean time between critical failures, the integrated
diagnostics, and logistics support. As a result, Air Force operational testers were
not able to resolve whether the Fighter Data Link terminal was suitable when
integrated into the F-15. Consequently, Air Force testers deferred further
evaluation of built-in-test functionality until follow-on operational test and
evaluation. According to DOT&E, during follow-on operational test and
evaluation, the Fighter Data Link was able to demonstrate 963 hours even though
the ORD requires 1,000 hours.

Predator Unmanned Aerial Vehicle
                     Operational Effectiveness Issues

Critical Operational Issue (Mission Utility). Can the Predator system perform
reconnaissance, surveillance, and target acquisition tasks to support battle
management, execution, and operations other than war? Although the Predator
System Program Office certified that the Predator was ready to enter operational
testing, it identified operational effectiveness limitations related to the system’s
ability to recognize tactical-sized targets that were identified during informal
developmental testing. Based on operational testing conducted before the full-rate
production decision, DOT&E stated that the Predator was not operationally
effective, which included the inability to recognize tactical-sized targets

                      Operational Suitability Issues

Critical Operational Issue (Reliability). Does the Predator system meet the
warfighter’s sustained combat requirements? The System Program Office certified
the Predator as ready to enter operational test and evaluation with test limitations
concerning the aircraft’s effective time on station that were identified during
informal developmental testing. One limitation was the use of pre-production
wing sets instead of production units during operational testing to determine the
aircraft’s effective time on station. The ORD requirement for effective time on
station was 75 percent, but the actual effective time on station recorded during
testing was about 70 percent. Correcting for the use of pre-production wing sets,
the Air Force Operational Test and Evaluation Center stated that it was 68 percent
confident that the system would meet the ORD requirement. However, the
Air Force Operational Test and Evaluation Center stated that, under sustained
operations, it was highly probable that air vehicle failures would have a negative
effect on the aircraft’s effective time on station.

Critical Operational Issue (Interoperability). Can the Predator system
successfully accomplish the mission planning, launch and recovery, in-flight
operations, and interoperability with other command, control, communication, and
computers and intelligence systems necessary to perform its missions? The System
Program Office exempted planned operational tests of interoperability data links
and file formats because the Joint Interoperability Test Command had not certified
the system for interoperability, thereby affecting the resolution of the COI.
Accordingly, the System Program Office certified that the Predator Unmanned
Aerial Vehicle was ready for operational testing with a stipulation that, if the Joint
Interoperability Test Command did not certify the system for


                                     49
interoperability during initial operational test and evaluation, the System Program
Office would complete the certification process after the completion of operational
testing. According to DOT&E FY 2001 Annual Report, the Joint Interoperability
Test Command had not yet certified the Predator for interoperability because of the
untested critical requirements. Further, the Joint Interoperability Test Command
had certified only three of the seven critical system interfaces because the
remaining interfaces were not available for evaluation. The System Program
Office deferred further interoperability testing of the Predator until the Military
Departments field ground stations that are equipped with tactical control stations.




                                    50
Appendix F. Audit Response to the Director,
            Operational Test and Evaluation
            Comments on the Report
   The detailed responses to the comments from the Director, Operational Test and
   Evaluation on statements in the draft report follow. The DOT&E commented on
   limiting the use of waivers, live-fire test and evaluation, and the Fighter Data
   Link. The complete text of those comments is in the Management Comments
   section of this report.

   Limiting the Use of Waivers. The Director stated that his office seeks to limit
   the issuance of waivers and eliminate their interference with evaluations of
   operational effectiveness and suitability.

   Live-Fire Test and Evaluation. The Director stated that the Background section
   of the report states that, “…evaluation and when live-five test and evaluation…,”
   and that it should be revised to state “…evaluation and when live-fire test and
   evaluation….”

   Audit Response. We revised the report as suggested.

   Fighter Data Link. The Director stated that, during initial operational test and
   evaluation, inadequate flight hours were available to evaluate the Fighter Data
   Link built-in-test and logistics supportability. Further, he stated that although the
   ORD requires 1,000 hours, during follow-on operational test and evaluation, the
   Fighter Data Link was able to demonstrate 963 hours.

   Audit Response. We revised the report as suggested.




                                        51
Appendix G. Audit Response to Army Comments
            on the Report
    The detailed responses to the comments from the Deputy Under Secretary of the
    Army (Operations Research) on statements in the draft report follow. The
    complete text of those comments is in the Management Comments section of this
    report.

Management Comments on the Background and Appendix C
 and Audit Response
    The Deputy commented on the Background section and Appendix C, “Test and
    Evaluation Policy,” of the report.

    Background. The Deputy stated that the report states that we initiated the audit to
    address the DOT&E concern about programs beginning operational test and
    evaluation without completing sufficient developmental test and evaluation.
    However, the Deputy further stated that we limited the scope of the audit to the test
    waiver and deferral process, which he believed was not sufficiently broad enough
    to yield findings or recommendations that could improve the robustness of
    developmental testing or the likelihood of conducting a successful operational test.

    Audit Response. We limited the scope of the audit to the test waiver and deferral
    process based on concerns DOT&E expressed in his FY 2000 annual report.
    Specifically, the Director expressed concern about programs beginning operational
    testing without completing sufficient developmental test and evaluation and about
    the Navy’s use of test waivers. The primary focus of the audit was not
    developmental testing or the likelihood of conducting a successful operational test
    because, as the Director stated, the reason that developmental testing was not
    robust was that program managers have reduced developmental testing to save
    time and money, thereby postponing the problems to operational testing.
    Therefore, we focused the audit on the Director’s concern about the Military
    Departments’ use of test waivers.

    Appendix C. The Deputy recommended that the report mention the COI approval
    authority for each of the Military Departments. The Deputy rationalized that,
    because COIs are important to the decision makers, mentioning the approval
    authority would reveal how the decision makers are considering COIs and COI
    criteria as tester or decision maker products. He also stated that, in accordance
    with Army Regulation 73-1, “Test and Evaluation Policy,” COI criterion approval
    authority is based on the type of program. For example, the approval authority for
    material and tactical programs with command, control, communications,
    computers, and intelligence and information technology requirements would be the
    Deputy Chief of Staff for Programs (G-8) and for nontactical programs with
    similar requirements, it would be the Army Chief Information Officer. Further, the
    Deputy stated that Army test and evaluation policy addresses a mandatory



                                         52
    attachment, “Requirements/Test Crosswalk Matrix,” which identifies the source of
    each operational requirement agreed upon with the TEMP approval.

    Audit Response. The primary focus of the audit was not on how the decision
    makers consider COIs and COI criteria for approval, but rather on the waiver of
    the testing for the COIs and the need for subsequent testing of those COIs to
    ensure that the system is operationally effective and suitable.

Management Comments on Finding A and Audit Response
    The Deputy discussed operational effectiveness and operational suitability issues
    associated with the Javelin, the Patriot Advanced Capability-3, and the Tactical
    Unmanned Aerial Vehicle programs.

    Javelin. For the Javelin Program, the Deputy commented on unresolved issues,
    the table of COIs, operational requirements, suitability issues, training category,
    and the description of the Javelin.

           Unresolved Issues. The Deputy recommended removing the discussion
    about the Javelin from the report because it did not support the report’s overall
    argument that unresolved issues caused costly retrofits of fielded units or an initial
    operational performance that is less than expected to defeat the threat.

             Audit Response. The System Evaluation Report, March 27, 1997, states
    that all reliability, availability, and maintainability requirements for the full-rate
    production decision were met with the exception of the field tactical trainer (range)
    mean time between operational mission failures. Therefore, the critical operational
    issue for reliability was not fully resolved before the full-rate production decision,
    thereby resulting in initial operational performance that was less than expected and
    the potential for fixes that will result in retrofit costs for fielded units.

            Table of COIs. The Deputy disagreed with the issue, suggesting that the
    table, “Critical Operational Issues Not Fully Resolved Because of Approved Test
    Waivers or Test Limitations for the Eight Defense Systems Affected,” be changed
    to show that the Javelin did not have unresolved issues for reliability.

           Audit Response. The Javelin did have an unresolved reliability issue
    when the full-rate production decision was made. Specifically, the System
    Evaluation Report states that the field tactical trainer (range) attained a mean time
    between operational mission failures of 25.9 hours that did not meet the threshold
    requirement of 32 hours.

            Operational Requirements. The Deputy disagreed with the issue, stating
    that the requirement for a 100-hour mean time between operational mission
    failures for the field tactical trainer (range) cited in the report was a requirement
    written in the Joint Service Operational Requirements before the tactical and
    training systems had a firm hardware configuration. Further, he stated that the
    U.S. Army Infantry reevaluated the requirements in 1994 and reduced the
    100-hour requirement to 50 hours that should be attained at the time of system


                                          53
maturity, 3 years after the full-rate production decision. The Deputy also stated
that the requirement for the full-rate production decision was 32 hours as shown in
the System Evaluation Report, March 27, 1997. In addition, he stated that,
although the 25-hour mean time between operational mission failures did not meet
the 32-hour requirement, the difference between 25 hours and 32 hours was closer
than between 25 hours and 100 hours and would not have caused the Army to not
field the Javelin. The Deputy stated that the majority of the problems with the
field tactical trainer (range) and the associated fixes were simple and effective as
indicated in the Army Test and Evaluation Command assessment, “System
Assessment of Javelin Reliability and Availability Maturity,” December 2000.

        Audit Response. Based on the Army comments, we revised the report to
address the 32-hour requirement for the full-rate production decision and the
50-hour requirement for system maturity. The Army comments affirm the report
statement that the attained mean time between operational mission failures for the
field tactical trainer (range) did not meet the threshold requirement.

        Suitability Issues. The Deputy disagreed with the issues, stating that the
report incorrectly states that the Army operational testers resolved the field tactical
trainer (range) suitability issues after the full-rate production decision. He did not
believe that the report was correct because the Army Test and Evaluation
Command conducted a limited user test from March through May 1996, which
resolved those suitability issues. The Deputy stated that after the limited user test,
the Army Test and Evaluation Command conducted a customer confirmatory test.
Further, he stated that the program successfully completed the customer
confirmatory test that demonstrated the suitability of the field tactical trainer, after
which the Army System Acquisition Review Council made its full-rate production
decision in July 1997.

        Audit Response. When asked, the Deputy’s representative was unable to
provide support to validate the statement that the customer confirmatory test
successfully demonstrated the suitability of the field tactical trainer (range). As
stated in the report, the System Evaluation Report states that all reliability,
availability, and maintainability requirements for the full-rate production decision
were met with the exception of the field tactical trainer (range) mean time between
operational mission failures. Therefore, the COI for reliability was not fully
resolved before the full-rate production decision.

        Training Category. The Deputy suggested adding the training category to
the table in the report addressing COIs that were not fully resolved.

        Audit Response. According to the Deputy’s representative, the Deputy
wanted to add the training category to the table because he believed that the field
tactical trainer (range) deficiencies were training rather than reliability issues. We
did not add the training category to the table because the System Evaluation
Report indicates that the mean time between operational mission failures
requirement for the field tactical trainer (range) was a reliability issue.

       Description of the Javelin. The Deputy suggested that the description of
the Javelin include the description of the field tactical trainer, the only unresolved
issue with the Javelin.

                                      54
       Audit Response. We revised the report as suggested.

Patriot Advanced Capability-3. For the Patriot Advanced Capability-3 Program,
the Deputy commented on the ORD cancellation, delays in software development
and missile availability, the operational effectiveness COI, and system reliability
problems.

        ORD Cancellation. The Deputy stated that the Secretary of Defense
retroactively canceled all ORDs for missile defense systems in January 2002 and
required that the replacement ORDs be capabilities based.

        Audit Response. As stated, the Secretary of Defense canceled all ORDs
for missile defense programs in January 2002; however, the August 2002 TEMP
for the Patriot Advanced Capability-3 indicates that the testers initiated and
conducted the testing described in the TEMP based on the 1998 ORD. The TEMP
further stated that all future testing on the Patriot Advanced Capability-3 would
adhere to a capabilities-based ORD. According to Patriot Advanced Capability-3
representatives, the Army combat developers had not yet established a
capabilities-based ORD for the Patriot Advanced Capability-3.

        Delays in Software Development and Missile Availability. The Deputy
disagreed with the operational effectiveness issue, stating that, based on delays in
software development and Patriot Advanced Capability-3 missile availability, the
Army made a decision to split the system testing, evaluation, and fielding into two
parts: the First Unit Equipped-Ground (the Ground) and the First Unit
Equipped-Missile (the Missile). Further, he stated that the Army testers conducted
a limited user test of the Ground part from March through October 2000. The
Deputy stated that the test incident reports for the limited user test were
subsequently resolved or deferred before the Army testers conducted the initial
operational test and evaluation on the Missile part from January through May
2002. The Deputy commented that even though the Army deferred testing of some
of the requirements in the canceled ORD, the user requirements were still valid
and would be tested and evaluated later.

        Audit Response. The primary focus of this report is the waiver of the
testing for the COIs and the need for subsequent testing of those COIs to ensure
that the system is operationally effective and suitable. Because the Patriot
Advanced Capability-3 missile encountered the deficiencies before the initial
operational testing and the Army made the decision to defer the resolution of some
of those deficiencies until after the full-rate production, the program most likely
will experience retrofit costs for fielded units and initial operational performance
that may be less than required to defeat the expected threat.

        Operational Effectiveness COI. The Deputy agreed with the statement in
the draft report that, “The testers were not able to resolve the operational
effectiveness COI before the planned full-rate production decision because the
Army deferred test requirements….” He stated that the program had deferrals of
test requirements that were driven by deferrals of system performance
requirements and that the Army testers believed that deferrals of test requirements
was a prudent decision with acceptable risks based on world events. The Deputy


                                     55
            concluded that the events in the Mid-East validated the Army tester’s decision to
            defer the test requirements.

                     System Reliability Problems. The Deputy disagreed with the system
            reliability issue, stating that the draft report stated that the limited user test
            revealed a number of Patriot Advanced Capability-3 reliability problems involving
            the mean time between critical mission failure rate for the communication relay
            group, the engagement control station, and the fire unit. He stated that difficulties
            with the routing logic radio interface unit was the primary cause of the problems
            involving the mean time between critical mission failure rate. The Deputy also
            stated that the Lower Tier Project Office5 and Raytheon corrected the difficulties
            with the routing logic radio interface unit after the Ground limited user test and
            before the Missile initial operational test and evaluation. As a result of the
            correction, he stated that the mean time between critical mission failures for the
            fire unit went from 12.6 hours during the limited user test to 19.4 hours6 during the
            initial operational test.

                    Audit Response. As the Deputy indicated, the “System Evaluation Report
            of the Patriot Advanced Capability-3 Initial Operational Test and Evaluation” did
            indicate that the mean time between critical mission failure rate for the
            communications relay group, the engagement control station, and the fire unit had
            improved. That improvement to 19.8 hours, however, was less than the threshold
            requirement of 21 hours. Accordingly, the System Evaluation Report indicated
            that the system was operationally suitable with limitations, including reliability
            and availability. We revised our report to include the System Evaluation Report
            results that were not available when the draft report was issued.

            Tactical Unmanned Aerial Vehicle. For the Tactical Unmanned Aerial Vehicle
            Program, the Deputy commented on operational effectiveness and operational
            suitability.

                    Operational Effectiveness. The Deputy agreed with the operational
            effectiveness issues associated with the ground control station and the tactical
            control system compatibility discussion in the report.

                    Operational Suitability. The Deputy disagreed with the operational
            suitability issue, recommending that we delete the logistics supportability issues
            because the Tactical Unmanned Aerial Vehicle met the threshold fuel
            requirements during the May 2002 initial operational test. Although the Army
            approved a system limitation memorandum, he stated that it should be disregarded
            because it references an inconsistent program support requirement within the
            ORD. The Deputy also stated that the current TEMP for the Tactical Unmanned
            Aerial Vehicle includes a limited user test to reevaluate the system after the




5
    The Lower Tier Project Office is the project office for the Patriot Advanced Capability-3 Program.
6
    The System Evaluation Report shows that this was actually 19.8 hours


                                                       56
    Tactical Unmanned Aerial Vehicle Program Office develops and integrates a
    replacement heavy fuel engine.

           Audit Response. The ORD objective requires the system to use only
    heavy fuel; however, the system available for testing during initial operational test
    used motor gasoline, which meets the operational requirement threshold, the
    minimal acceptable value necessary to satisfy the need. The ORD also states that
    motor gasoline will not be available after 2005 in the Army inventory and that,
    although motor gasoline is generally available on the local economy, heavy fuel is
    the Army tactical fuel. To integrate a replacement heavy fuel engine into the
    Tactical Unmanned Aerial Vehicle will potentially require costly retrofit as
    addressed in the report finding. As a result, the Army is addressing the issue of
    supporting a motor gasoline system in the future.

Management Comments on Finding B and Audit Response
    OSD Guidance on Test Deferrals. For the report paragraph, “OSD Guidance on
    Test Deferrals,” the Deputy recommended that we revise the wording in the
    sentence that reads, “Further, the DOT&E issued guidance on August 3, 2001, that
    directed Military Department testers not to issue waivers or deferrals that would
    prevent a complete evaluation of operational requirements.” The Deputy stated
    that Army test and evaluation policy does not authorize testers to waive
    documented test requirements.

    Audit Response. Although the Army test and evaluation policy does not
    authorize testers to waive documented test requirements, the Deputy needs to
    revise its guidance to reference or conform to DOT&E guidance on overall
    waivers.




                                         57
Appendix H. Audit Response to Navy Comments
            on the Report
    The detailed responses to the comments from the Deputy Assistant Secretary of the
    Navy (Research, Development, Test and Evaluation) on statements in the draft
    report follow. The Deputy stated that his comments contained information
    considered privileged in litigation, primarily under the deliberative process
    privilege and, therefore, was exempt from mandatory disclosure under the
    Freedom of Information Act. Where applicable, he marked his comments “For
    Official Use Only.” The complete text of those comments is in the Management
    Comments section of this report.

Management Comments on the Overall Report and Audit
 Response
    The Deputy commented on OSD test deferral guidance; the potential effects of
    waivers; effects of waivers; report inaccuracies; the acronym for Chief of Naval
    Operations; the acronym for Commander, Operational Test and Evaluation Force;
    types of waivers; and Navy test waivers.

    OSD Guidance on Test Deferrals. The Deputy stated that the report incorrectly
    states that the DOT&E memorandum, August 3, 2001, represents DoD policy on
    test waivers and deferrals. Further, he stated that written policy guidance at the
    DoD level did not exist, that the memorandum was not a directive to the Military
    Departments, and that OSD never implemented the memorandum in subsequent
    DoD directives. The Deputy also stated that each Military Department is within its
    authority to establish and execute their policies regarding test waivers and
    deferrals. Further he stated that the Navy consults with DOT&E on all major
    Defense acquisition programs and DOT&E oversight programs before considering
    test waivers or deferrals.

    Audit Response. The DOT&E memorandum, August 3, 2001, does represent
    DoD policy on test waivers and deferrals. The DOT&E has the authority to issue
    guidance to the Military Departments on test policy. Section 139, title 10, United
    States Code states that the DOT&E is the principal DoD adviser to the Secretary of
    Defense and the Under Secretary of Defense for Acquisition, Technology, and
    Logistics on operational test and evaluation and the principal operational test and
    evaluation official within the DoD senior management. Section 139 further states
    that the DOT&E will prescribe, by authority of the Secretary of Defense, policies
    and procedures for the conduct of operational test and evaluation in the DoD.

    Although the revised DoD Instruction 5000.2 does not use the term waivers
    discussed in the DOT&E memorandum, it does discuss those deficiencies
    encountered in testing before the LRIP decision for which program managers used
    test waivers, deferrals, and limitations to address. The Instruction requires that




                                        58
those deficiencies be resolved before the system can proceed beyond LRIP and
that any fixes to those deficiencies be verified during follow-on operational test
and evaluation.

Further, the DOT&E stated that the Military Departments should already have
promulgated the memorandum’s test policy to their operational test organizations.
The Navy stated that it consults with DOT&E on all major Defense acquisition
programs and DOT&E oversight programs before considering test waivers or
deferrals; therefore, it should already have implemented the guidance in the
DOT&E memorandum.

Potential Effects of Waivers. The Deputy stated that the report incorrectly states
that test waivers or deferrals create the inability to resolve COIs needed to assess a
program’s ability to meet its operational requirements in effectiveness or
suitability. He stated that before the Navy considers a test waiver or deferral, it
considers the effect of the test waiver or deferral on the program’s operational
effectiveness and suitability. Further, the Deputy stated that test waivers and
deferrals are seldom a factor in COI resolution or determinations of effectiveness
or suitability. He also stated that, when specified by the Navy Acquisition
Executive or the milestone decision authority, Navy testers conduct tests to
provide information to them about a program. The Deputy stated that the Navy
formally reviews approval of test waivers or deferrals and that the Navy
Acquisition Executive and the milestone decision authority carefully consider any
fielding decision.

Audit Response. As evidenced in the report, the Navy’s consideration of the
effect of the test waivers and deferrals on the program’s operational effectiveness
and suitability before approval of the test waiver or deferral did not ensure that
Navy operational testers could resolve COIs needed to assess a program’s ability
to meet its operational requirements in effectiveness or suitability. Test waivers
and deferrals were a factor limiting the Navy operational testers’ ability to
determine the operational effectiveness and suitability of Navy systems.

For example, the V-22 Program Office’s request for test waivers states that the
limitations will affect the complete resolution of the affected COIs for operational
effectiveness and suitability. Although the F-18E/F Program Office’s request for
test waivers indicated that the limitations would not affect the resolution of
affected COIs for operational effectiveness and suitability, the request did list the
potential effects of the limitations on fleet use. The potential effects on fleet use
could reasonably be considered the potential effects on operational testing and the
resolution of affected COIs if those tests were conducted. In accordance with Navy
policy, however, Navy operational testers were not to use those effects in their
analysis to resolve COIs.

The Navy’s policy states that the Office of the COMOPTEVFOR was not to assess
waived requirements in its analysis to resolve COIs, but could comment on the
waived requirements in the applicable test report. Without this analysis of the
effects of the waivers on resolution of COIs, the Navy Acquisition Executive and
other Navy milestone decision authorities were not being provided with complete



                                      59
information on whether the waived or deferred test requirement would have an
adverse effect on the system’s operational effectiveness, suitability, or both. With
incomplete information, the milestone decision authority could make a decision
that would later result in costly retrofits to fielded units and an initial operational
performance that may be less than required to defeat the expected threat.

Effects of Waivers. The Deputy provided comments similar to those he made
concerning the discussion, “Potential Impacts of Waivers.” In addition to those
comments, he stated that the report provides no evidence that retrofits occurred for
Navy programs as a result of test waivers or deferrals. The Deputy stated that the
two Navy programs discussed in the report, the F/A-18E/F Super Hornet and the
V-22 Osprey, have not been retrofitted and the Navy does not consider them
deficient against the expected threat as a result of test waivers or deferrals.
Audit Response. Although the Deputy stated that the F/A-18E/F Super Hornet
and the V-22 Osprey have not had any retrofits to date, the V-22 and the
F/A-18E/F waiver requests indicate that the waived requirements will not be fixed
and available for testing until after the full-rate production decisions. In his
response, the Deputy did not indicate when fixes resulting from testing of the
waived requirements would be incorporated into the full-rate production aircraft
produced. Accordingly, the extent of retrofit costs will not be known until the
Navy begins incorporating fixes for unresolved COIs in production aircraft already
produced.

Acronyms for Chief of Naval Operations and Commander, Operational Test
and Evaluation Force. The Deputy stated that throughout the report, Director,
Test and Evaluation and Technology Requirements, Office of the Chief of Naval
Operations, and Commander, Operational Test and Evaluation Force are
unnecessarily referred to in long title and suggested that the report use the long
title once early in the report and thereafter use CNO (N091) and
COMOPTEVFOR, respectively.

Audit Response. Based on IG DoD policy, too many acronyms make a report
difficult to read and diminish the report’s effectiveness. In the report, we use the
title, “Director Test and Evaluation and Technology, Office of the Chief of Naval
Operational,” infrequently; therefore, we did not use the acronym. Because we
used the title “Commander, Operational Test and Evaluation Force” more often,
we revised the report to use the acronym as suggested.

Types of Waivers. The Deputy stated that the report indiscriminately used the
word “waiver” even though Navy policy defines two types of waivers with
different ramifications. Specifically, the Navy policy identifies test waivers from
operational test certification requirements and test waivers from TEMP
requirements. He stated that the assertions and conclusions in the report could be
affected by improper, indiscriminate, and inappropriate use of the word “waiver”
when describing testing of Navy programs. The Deputy recommended that we
review all Navy sections of the report to identify whether the approved waiver
was a test waiver from operational test certification requirements (Part A) or test
waiver from TEMP requirements (Part B).



                                      60
            Audit Response. The Office of DOT&E defines a test waiver as deferral of a
            testing requirement that does not eliminate the requirement for testing. Although
            the Navy’s waiver request for the V-22 Osprey and the F/A-18E/F designate the
            deficiencies as either Part A or Part B waivers, the testing requirement for each
            type of deficiency will not be met until after the full-rate production decision.
            Therefore, the test waivers, whether Part A or Part B, are deferrals of testing
            requirements and do not eliminate the requirement for testing as presented in the
            report.

            Navy Test Waivers. The Deputy stated that the definition of a test waiver, as
            stated in the Background section of the report, is vague and inaccurate and does
            not correspond with the definition in Secretary of the Navy Instruction 5000.2B,
            “Implementation of Mandatory Procedures for Major and Non-Major Defense
            Acquisition Programs and Major and Non-Major Information Technology
            Acquisition Programs,” December 6, 1996. He stated that the report needs to
            properly define test-waiver terminology and recommended replacing the
            paragraph, “Navy Test Waiver,” with text that defines the two types of waivers as
            follows:

                     •   Waivers from compliance with the criteria for certification to
                         commence operational testing, referred to as Part A waivers, and

                     •   Waivers for deviations from the testing requirements directed by the
                         TEMP, referred to as Part B Waivers. Those waivers are deferrals that
                         are meant to appropriately delay planned testing from one test period
                         to a later test period. Further, those deferrals require impact
                         statements and a defined follow-on test period.

            Audit Response. The Background section of the report states that, “The Navy
            uses the term ‘waiver’ to mean either deferral of testing of an operational
            requirement or authorization to proceed with testing, even though the program has
            not met the requirements of Secretary of the Navy Instruction 5000.2B.” The
            statements in the Background section of the report about the Navy use of test
            waivers is a synopsis of the test waiver terminology in Secretary of the Navy
            Instruction 5000.2B. The report discusses the Navy’s test waiver policy in further
            detail in Finding B and Appendix C, “Test and Evaluation Policy.”

Management Comments on Finding A and Audit Response
            The Deputy commented on the resolution of COIs, operational effectiveness
            COIs, operational effectiveness for the F/A-18E/F Super Hornet, Chief of Naval
            Operations involvement, a previous IG DoD Report, a V-22 safety COI,
            F/A-18E/F Super Hornet human factors COI, and the effect of not meeting
            operational requirements.

            Resolution of COIs.
                                                        *

*
    Deliberative process privilege data omitted.

                                                   61
                                                        *




            Audit Response.




                                                        *




            Operational Effectiveness COIs. The Deputy stated that the table, “COIs Not
            Fully Resolved Because of Approved Test Waivers of Test Limitations for the
            Eight Defense Systems Affected,” has only one column for the operational
            effectiveness COIs, while the operational suitability COIs are individually broken
            out. Further, he stated that having one column for the operational effectiveness
            COIs was misleading and implied that effectiveness as a whole was waived or
            deferred. The Deputy suggested that the report list the waived effectiveness
            COIs.

            Audit Response. We did not break out separate categories for operational
            effectiveness COIs because the eight programs did not have common operational
            effectiveness COIs among the Military Departments. The Military Departments
            did have common COIs for operational suitability parameters. Also, as shown in
            Appendix E, the COIs for suitability parameters were more often affected by
            waivers or deferrals of operational testing. In Appendix E, we do provide an
            individual listing of the operational effectiveness COIs that could not be fully
            resolved during operational testing before full-rate production decisions.

            Operational Effectiveness for the F/A-18E/F Super Hornet.
                                                        *

*
    Deliberative process privilege data omitted.


                                                   62
                                                        *



            Audit Response.

                                                        *


            Chief of Naval Operations Involvement. The Deputy stated that the report
            states that the Director of Navy Test and Evaluation and Technology
            Requirements considered three of the five COIs for operational effectiveness to be
            satisfactorily resolved for the F/A-18E/F Super Hornet. He further stated that this
            statement is technically incorrect because COMOPTEVFOR, not the Director of
            Navy Test and Evaluation and Technology Requirements, resolves COIs.

            Audit Response. We revised the report accordingly.

            Previous IG DoD Report. The Deputy stated that the report cites a previous
            IG DoD report that discusses a limitation to operational testing in a
            COMOPTEVFOR test plan because of the known nonavailability of a
            reconnaissance system for the F/A-18E/F. Further, he stated that the phased
            development of the Shared Reconnaissance Pod, a limitation to testing that
            precluded evaluation of the reconnaissance COI, was well understood before the
            F/A-18E/F operational evaluation. The Deputy also stated that DOT&E, in the
            beyond LRIP report on the F/A-18E/F operational evaluation, stated that “The
            tactical reconnaissance sensor suite intended for eventual employment on the
            FA-18E/F was not developed/cleared for employment during OPEVAL
            [operational evaluation]. The TEMP for the F/A-18E/F, as approved by DOT&E
            in 1992, explicitly stated this limitation with the intention of evaluating this
            capability during a future period of Follow-On Operational Test and Evaluation
            (FOT&E), OT-III.” Consequently, the Deputy recommended that we remove
            from the report the paragraph citing a previous IG DoD report because it is not
            germane to test waivers and deferrals. He also stated that limitations to the scope
            of operational testing before the operational test and evaluation were not test
            waivers or deferrals.

            Audit Response. We did not remove the subject paragraph from the report. The
            Deputy’s comment confirmed that the known nonavailability of a reconnaissance
            system for the F/A-18E/F deferred the testing of the sub-system until after the
            full-rate production decision for the F/A-18E/F aircraft. Therefore, the previous
            IG DoD Report is germane to the discussion of Navy waivers and deferrals.

            V-22 Safety COI.
                                                        *




*
    Deliberative process privilege data omitted.


                                                   63
                                                            *


            Audit Response.

                                                            *


            F/A-18E/F Super Hornet Human Factors COI.


                                                            *



            Audit Response.

                                                            *


            Effect of Not Meeting Operational Requirements. The Deputy reiterated the
            following statements that we made in the finding.
                         Without the Military Departments fully resolving COIs for weapon
                         systems during initial operational test and evaluation, weapon systems
                         that were not fully ready continued into production, thereby creating a
                         potential need for costly retrofit of fielded units and an initial
                         operational performance that may be less than required to defeat the
                         expected threat.

            The Deputy believed that the paragraph conflicted with the DOT&E Beyond
            LRIP Report conclusions regarding F/A-18E/F readiness for full-rate production.
            The Director provided the DOT&E Beyond LRIP Report conclusion as follows:
                         The limitations of OPEVAL [operational evaluation] did not inhibit the
                         operational evaluation of this aircraft. OPEVAL, as planned and
                         conducted provided a test of the operational effectiveness and
                         operational suitability of the F/A-18E/F that is adequate for resolution
                         of the critical issues and for informing the acquisition decision
                         authority regarding the full-rate production decision.

            The Deputy stated that the report did not present any specific evidence that the
            V-22 or F/A-18E/F has or will require costly retrofit to defeat the expected threat.
            He recommended that the V-22 and F/A-18E/F be excluded from the above
            paragraph in the report.

            Audit Response. The V-22 and F/A-18E/F were not excluded from the above
            paragraph because the Navy waived test requirements that did affect the
            resolution of operational effectiveness and suitability COIs. Although approval
            of the test waiver request did not alter the test requirement, Secretary of the Navy

*
    Deliberative process privilege data omitted.


                                                      64
    Instruction 5000.2B precluded COMOPTEVFOR from assessing the effects of
    waived requirements in its analysis concerning the resolution of COIs.

    For the V-22, the request for test waivers specifically stated that the limitations
    would affect the complete resolution of the affected COIs for operational
    effectiveness and suitability. As a result of Navy policy concerning the resolution
    of COIs, COMOPTEVFOR did not assess the potential effects to fleet use,
    operational testing, and the affected COIs in the analysis.

    Although the F/A-18E/F request for test waivers indicated that the limitations
    would not affect the resolution of affected COIs for operational effectiveness and
    suitability, it listed potential effects on fleet use. In actuality, the potential effects
    on fleet use could reasonably be considered the potential effects on the
    completion of adequate operational testing and the resolution of affected COIs if
    those tests were conducted. In accordance with Navy policy, COMOPTEVFOR
    could not assess those effects in its analysis concerning the resolution of COIs.

    Waiver requests for the V-22 and the F/A-18E/F also indicated that the waived
    items would not be available for testing until after the full-rate production
    decision.

Management Comments on Finding B and Audit Response
    Management Comments. The Deputy stated that the paragraph, “Navy
    Procedures,” and the accompanying subparagraphs, “Waiver Process,” and
    “Subsequent Operational Tests,” did not accurately define or explain the Navy
    test waiver and deferral policy. He further stated that the paragraph provided an
    inaccurate and incomplete definition of Navy waiver policy and process that
    affects all other Navy portions of the report. The Deputy recommended deleting
    the paragraph and subparagraphs and provided the following replacement text:
                Navy Policy and Procedures. At the time of the V-22 and F/A-18E/F
                OPEVALs [operational evaluations], waivers were governed by
                Secretary of the Navy Instruction 5000.2B, ‘Implementation of
                Mandatory Procedures for major and Non-Major Defense Acquisition
                Programs and Major and Non-Major Information Technology
                Acquisition Programs’ effective 6 December 1996. Two types of
                waivers were defined:

                     1. Part A Waivers from compliance with the criteria for OT
                [operational test] certification. These waivers are meant to allow a
                system to enter OPEVAL or FOT&E [follow-on operational test and
                evaluation] even though all criteria have not been met. Waivers do not
                change or delay any system or testing requirements, only the
                data/maturity required by the Decision (DA) to allow a system to enter
                into an Operational Test (OT) period. Data for any waived OT
                certification requirement may be used in COMOPTEVFOR’s final
                analysis to resolve COIs, determine system operational effectiveness,
                operational suitability, and any recommendation regarding fleet
                introduction.




                                             65
                    2. Part B Waivers. These are deferrals for deviations from the
               testing requirements directed by the Test and Evaluation Master Plan
               (TEMP). These deferrals are meant to appropriately delay planned
               testing from one test period to a later decided-upon test period. This
               moves a requirement from one test period to a later period. A deferral
               may result in limitations to the scope of testing that may preclude
               COMOPTEVFOR from fully resolving all COIs. Deferred items shall
               not be used in COMOPTEVFOR’s final analysis to resolve COIs, but
               maybe commented on in the appropriate sections of the test report.

                   Waiver Process. The program managers (PM) or Program
               Executive Officers (PEOs) formulate waiver requests prior to the OT
               readiness and certification review (OTRR) process. When requesting a
               waiver or deferral, the PM shall outline the limitations that the deferral
               or waiver will place upon the system under test, and their potential
               impacts on fleet use. Further, a statement shall be made in the OT&E
               [operational test and evaluation] certification message noting when
               approved deferrals will be available for subsequent operational testing.
               The Director, Navy Test and Evaluation and Technology Requirements
               (CNO(N091)) adjudicates all waiver requests in coordination with
               COMOPTEVFOR, DCNOs [Deputy Chief of Naval Operations] for
               Logistics, DCNO (Resources, Warfare Requirements, and
               Assessments), and the program sponsor. N091 approves waivers as
               appropriate, and advises OSD (DOT&E) in the case of MDAPs [major
               Defense acquisition programs].”

    Audit Response. The Deputy’s comments on Navy policy and procedures did
    not accurately present information contained in the Secretary of the Navy
    Instruction 5000.2B. Specifically, the Instruction does not allow
    COMOPTEVFOR, for Part A Waivers, to use data for any waived operational test
    in its final analysis to resolve COIs to determine system operational effectiveness
    and operational suitability, and to make any recommendations regarding fleet
    introduction. Further, the Instruction does not state that COMOPTEVFOR, for
    Part B waivers, may comment on deferred items in the appropriate sections of its
    test report, but only in the “Operational Considerations” section of the test report.

    We incorporated the Deputy’s comments on the waiver process into the
    appropriate section of Finding B of the report.

Management Comments Addressing Appendix E, “Critical
 Operational Issues not Resolved Because of Approved Test
 Waivers or Test Limitations,” and Audit Response
    The Deputy commented on the F/A-18E/F operational effectiveness COIs,
    F/A-18E/F operational suitability COIs, reasons for waivers of test requirements,
    V-22 operational effectiveness COIs, and V-22 operational suitability COIs.

    F/A-18E/F Operational Effectiveness COIs. The Deputy stated that the report
    incorrectly states that, “As a result of the waivers, the COIs for operational
    effectiveness were not fully resolved during initial operational testing.” Further,
    he stated that, because of test waivers, COMOPTEVFOR could not fully resolve



                                             66
            the COI for air-to-ground sensors, which was 1 of the 20 operational effectiveness
            COIs. The Deputy stated that COMOPTEVFOR fully resolved the remaining
            19 operational effectiveness COIs.

            Audit Response. The COMOPTEVFOR test report did state that it was able to
            fully resolve 19 of the 20 operational effectiveness COIs; however,
            COMOPTEVFOR resolved those COIs without including an assessment of the
            effects of waivers on the resolution of the 19 COIs. This condition occurred
            because the Navy policy precludes COMOPTEVFOR from assessing the effect of
            waived requirements in its analysis on the resolution of COIs. In the audit report,
            the analysis considered the effect of the test waivers and deferrals on the
            resolution of the COIs.

            F/A-18E/F Operational Suitability COIs.



                                                        *




            Audit Response.


                                                        *




            Reasons for Waivers of Test Requirements. The Deputy disagreed with the
            following statement in the report: “Because of performance problems identified
            during developmental test, the Director of Navy Test and Evaluation and
            Technology Requirements, Office of the Chief of Naval Operations approved the
            following developmental test waivers.” He stated that the Director of Navy Test
            and Evaluation and Technology Requirements granted the following test waivers
            because the capability had not been tested before operational evaluation and not
            because of performance problems identified during developmental test:

                     •   Maximum short take off (shipboard) 48,500 pounds, rather than
                         mission profile specific weight.

                     •   Aircraft not cleared for air combat maneuvering.

*
    Deliberative process privilege data omitted.


                                                   67
            Further, the Director of Navy Test and Evaluation and Technology Requirements
            granted the following test waivers because the capability was still under
            development and had not been fielded before operational test and evaluation.

                     •   Defensive weapon system not available for test.

                     •   Crashworthy auxiliary fuel tanks not available for test.

                     •   Aircraft not cleared to operate in icing conditions.

                     •   Ground collision avoidance and warning system not available for test.

            Audit Response. We revised the report accordingly.
            V-22 Operational Effectiveness COIs.

                                                        *




            Audit Response.

                                                        *


            V-22 Operational Suitability COIs.



                                                        *




            Audit Response.

                                                        *




*
    Deliberative process privilege data omitted.




                                                   68
Appendix I. Audit Response to Air Force
            Comments on the Report
    The detailed responses to the comments from the Director, Air Force Test and
    Evaluation on statements in the draft report follow. The complete text of those
    comments is in the Management Comments section of this report.

Management Comments on the Overall Report and Audit
 Response
    The Director commented on the DOT&E Memorandum; test waivers, limitations,
    and deferrals; evolutionary acquisition; fielding new capabilities; and input from
    the Military Departments.

    DOT&E Memorandum. The Director stated that the August 3, 2001, DOT&E
    memorandum referenced in the report did not reach Headquarters, Air Force Test
    and Evaluation or the Air Force Operational Test and Evaluation Center. Further,
    he stated that the Air Force Operational Test and Evaluation Center received a
    different memorandum, dated August 7, 2001; however, that memorandum did not
    contain any guidance about test and evaluation waivers. The Director stated that
    his office had since obtained a copy of the August 3, 2001, memorandum that
    DOT&E addressed to his staff. Had the Air Force been given the opportunity to
    review or coordinate on the August 3, 2001, memorandum, he stated that his office
    would have nonconcurred with the language about waivers and requirements.
    Further, he stated that his office was unsure whether the DOT&E disseminated his
    August 3, 2001, memorandum to the entire test and evaluation community.

    Audit Response. In the DOT&E memorandum, the DOT&E stated that he was
    communicating the major points of the memorandum to the Commanders of the
    Operational Test Agencies and was encouraging them to share the guidance with
    their staffs so that everyone involved would be on the same wavelength. Further,
    DOT&E stated that the Military Departments should already have promulgated the
    memorandum’s test policy.

    Even if the Director had been able to nonconcur with the DOT&E memorandum,
    he is required by statute to comply with DOT&E guidance. DOT&E has the
    authority to issue guidance to the Military Departments on operational test policy.
    Section 139, title 10, United States Code states that DOT&E is the principal
    adviser to the Secretary of Defense and the Under Secretary of Defense for
    Acquisition, Technology, and Logistics on operational test and evaluation in the
    DoD and is the principal operational test and evaluation official within the DoD
    senior management. Section 139 further states that DOT&E will prescribe, by
    authority of the Secretary of Defense, policies and procedures for the conduct of
    operational test and evaluation in the DoD.

    Test Waivers, Limitations, and Deferrals. The Director stated that the report
    identifies differences in opinion, policy, and practice among the Military


                                         69
Departments and DOT&E staff about what constitutes a test waiver. The Director
believes that the report incorrectly considers test waivers, test limitations, and test
deferrals as the same. He stated that the Air Force rarely applies directly for test
waivers, but, instead, identifies test limitations and test deferrals to DOT&E
through the test plan approval process. Further, the Director stated that, after
DOT&E reviews and approves the test plans, no additional action is required. He
also stated that his office follows DoD 5000 policy and Title 10 that do not require
waivers for test limitations or test deferrals. The Director stated that, nonetheless,
his office is revising all Air Force test and evaluation policy documents and plans
to address the use of waivers in more detail. In addition, he stated that the other
Military Departments appear to use different strategies and policies for test
waivers.

Audit Response. Because the concept of the test waiver varies significantly
among the Military Departments, we included in the Background section of the
report the various definitions of test waiver used by DOT&E and the Military
Departments. Because of the inconsistent procedures that the Military
Departments use for test waivers and deferrals, the report recommends that the
Under Secretary of Defense for Acquisition, Technology, and Logistics; the
Director, Operational Test and Evaluation; the Deputy Under Secretary of the
Army (Operations Research); the Assistant Secretary of the Navy (Research,
Development, and Acquisition); and the Director, Air Force Test and Evaluation
collectively establish consistent guidance for processing test waivers or deferrals.

As stated in the report, DOT&E considers test limitations and deferrals as the same
as test waivers although the Military Departments did not agree that test
limitations and test deferrals are equivalent to test waivers. As defined by DOT&E,
test limitations and test deferrals accomplish the same objective as test waivers by
deferring required testing until later in the system acquisition process, usually after
the system’s full-rate production decision.

In reference to Air Force test waiver policy, Air Force Instruction 99-102 requires
the system program manager to prepare a request to waive or modify fundamental
provisions for operational test and evaluation. With user and developer
concurrence, the system program manager is to submit the request through the
Air Force Operational Test and Evaluation Center to the Air Force Test and
Evaluation Directorate. The system program manager and the system’s program
element monitor are to document any approved operational test and evaluation
waivers in the TEMP and the program management directive, respectively. Further,
Air Force Manual 63-119 requires a waived requirement to be tested in subsequent
operational test and evaluations or the user must change the ORD requirement. As
stated in the Air Force comments, the Air Force rarely adheres to those
requirements for processing test deferrals to operational test requirements.

We agree that DoD 5000 policy and Title 10 do not require the processing of
waivers for test limitations or test deferrals. For tests requirements not resolved
before the full-rate production decision, DoD Instruction 5000.2 requires that
deficiencies encountered in testing before the LRIP decision be resolved before the
system can proceed beyond LRIP and that any fixes to those deficiencies be
verified during follow-on operational test and evaluation.


                                      70
Evolutionary Acquisition. The Director stated that the report did not recognize
that the evolutionary acquisition strategy in the latest DoD 5000-series is the
preferred acquisition strategy. Further, he stated that the report did not recognize
the principles of time-phased requirements discussed in Chairman of the Joint
Chiefs of Staff Instruction 3170.01B, “Requirements Generation System,”
April 15, 2001. The Director stated that his main point is that deferrals of some
requirements and capabilities and the testing of the associated COIs and
requirements must now be planned for so that the evolutionary acquisition strategy
and the time-phased requirements will work. In addition, he stated that the
materiel developers, testers, and users can no longer expect a technically perfect
solution or “the perfect test” in the first increment that is deployed. In this regard,
the Director stated that the Under Secretary of Defense for Acquisition,
Technology, and Logistics mandated that trade-offs be made among cost, schedule,
and performance so that development programs get interim capabilities delivered
sooner while keeping cost and schedule under control.

Audit Response. The key point of this report is to not just field new capabilities,
but to field new capabilities that will fully meet warfighter requirements by
efficiently resolving core impediments to fulfilling those requirements. Even if a
system is being acquired using the evolutionary acquisition strategy, the system
still has to meet the operational requirements and COIs for that block of the
evolutionary acquisition. DoD Instruction 5000.2 requires that deficiencies
encountered in testing before the LRIP decision be resolved before the system can
proceed beyond LRIP, and that any fixes to those deficiencies be verified during
follow-on operational test and evaluation. Therefore, deficiencies identified before
each block of a system enters initial operational test and evaluation should be
corrected before the system enters full-rate production for that block. Further, the
objective of the evolutionary acquisition strategy is not to deliver a substandard
system to the warfighter, but, as DoD Instruction 5000.2 states, the objective is to
balance needs and available capability with resources, and to put capability into
the hands of the user quickly through a block upgrade approach.

Fielding New Capabilities. The Director stated that the three Air Force programs
cited in the report, the Predator, the Joint Direct Attack Munition, and the F-15
Tactical Electronic Warfare System, all used the evolutionary acquisition strategy
and time-phased requirements to varying degrees to field new capabilities earlier
than the traditional acquisition process. Further, he stated that the examples of test
waivers, limitations, and deferrals cited in the report do not rise to a level of
significance that warrant delaying any of these programs. The Director also stated
that program managers are following the DoD 5000 guidance to field capabilities
to warfighters sooner.

Audit Response. The Air Force, by proceeding into full-rate production before
resolving test deficiencies that were identified before the start of the initial
operational test and evaluation, was not following DoD 5000 guidance.

Input From the Military Departments. The Director stated that information in
the draft appears to come solely from DOT&E with minimal to no input from the
Military Departments. Further, he stated that no in-brief or interviews were held
with Air Force testers.


                                      71
    Audit Response. We obtained information for the report from interviews with
    DOT&E; Army, Navy, and Air Force test and evaluation offices; and selected
    program offices. Specifically, within the Air Force, we met with representatives of
    the Air Force Test and Evaluation Directorate and the Air Force Test and
    Evaluation Center on June 8, 2001, and September 10, 2001, respectively. We
    also interviewed and obtained documentation from system program office
    personnel for the F-15 Tactical Electronic Warfare System, the Predator
    Unmanned Aerial Vehicle, and the Joint Direct Attack Munition Program Offices.
    For the Fighter Data Link, we obtained e-mail documentation from representatives
    of the Multifunction Information Distribution System Program Office.

Management Comments Addressing the Main Body of the
 Report and Audit Response
    The Director commented on DoD waiver guidance, developmental test waivers,
    waiver equivalents, resolution of COIs, test responsibilities, missing data, DOT&E
    guidance, the F-15 Tactical Electronic Warfare System, the Joint Direct Attack
    Munition, definition of a test waiver, and Appendix A, “Scope and Methodology.”

    DoD Waiver Guidance. The Director stated that he agreed with the statement
    that “DoD guidance does not specifically define what a waiver from
    developmental and operational testing is.” He also stated that no officially
    coordinated definition or policy exists. The Director further stated that the only
    DoD-level test and evaluation waivers he knew of were in sections 2399 and 2366,
    title 10, United States Code, for system contractor involvement in operational test
    and evaluation and when live fire test and evaluation is too expensive and
    impractical. He stated that the Air Force recognizes and uses these kinds of
    waivers when necessary. However, he disagreed with the DOT&E definition of a
    waiver as a “deferral of a testing requirement, which does not eliminate the
    requirement for testing.” The Director stated that deferring the test of a system
    requirement to a later point in program development does not mean the need to test
    the requirement is waived. He also stated that the DOT&E definition of a waiver
    is not officially recognized DoD-wide, nor was it coordinated with the Military
    Department testers. The Director agreed that it is evident the concept of a test
    waiver varies greatly among the Military Departments. He stated that in addition
    to the Title 10 waivers, Air Force Instruction 99-102, “Operational Test and
    Evaluation,” July 1, 1998, requires “waivers” in the following three other
    instances:

           •   Program managers must obtain a waiver from the Air Force Materiel
               Command to use non-DoD test facilities when such facilities are
               available;

           •   The Air Force Operational Test and Evaluation Center must obtain a
               waiver from Headquarters, Air Force Test and Evaluation Directorate




                                        72
           before transferring responsibility for an operational test and evaluation
           program to a major command; and

       •   The Air Force Operational Test and Evaluation Center must obtain a
           waiver from Headquarters, Air Force Test and Evaluation Directorate
           before altering, excluding areas from, or not conducting operational test
           and evaluation. The Air Force Operational Test and Evaluation Center
           needs user and developer concurrence before Headquarters, Air Force
           Test and Evaluation Directorate can process these kinds of waivers.

Further, the Director stated that Air Force Manual 63-119, “Certification of
System Readiness for Dedicated Operational Test and Evaluation,” February 22,
1995, states that, “Approval of a waiver does not eliminate or alter the requirement
for operational test and evaluation.” He also stated that the waived items must be
tested in subsequent operational test and evaluation or the ORD must be changed.

Audit Response. Because the concept of the test waiver varies significantly
among the Military Departments, we included in the Background section of the
report the various definitions of test waiver by DOT&E and the Military
Departments. We also stated that the DOT&E definition does not include
sections 2399 and 2366, title 10, United States Code, regarding system contractor
involvement in operational test and evaluation and when live-fire test and
evaluation is too expensive or impractical, respectively. Further, we stated that,
although the Military Departments did not agree that test limitations and test
deferrals were equivalent to test waivers, as defined by DOT&E,test limitations
and test deferrals accomplished the same objective as test waivers by deferring
required testing until later in the system acquisition process, usually after the
system’s full-rate production decision.

Because of the inconsistent procedures the Military Departments used for test
waivers or deferrals, we recommended that the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the Director, Operational Test and
Evaluation; the Deputy Under Secretary of the Army (Operations Research); the
Assistant Secretary of the Navy (Research, Development, and Acquisition); and
the Commander, Air Force Test and Evaluation Directorate collectively establish
consistent guidance for processing test waivers or deferrals.

In its discussion of approvals of waivers, Air Force Manual 63-119 states that
“Waived items must be tested in subsequent operational test and evaluation or the
ORD must be changed.” This statement supports the DOT&E assertion that test
waivers accomplish the same objective as test deferrals by deferring required
testing until later in the system acquisition process.

Developmental Test Waivers. The Director stated that he did not know of any
requirement for the Military Departments to obtain waivers for developmental test
and evaluation of any kind. He further stated that DOT&E is restricted by
section 139, title 10, United States Code, as follows: “The Director may not be
assigned any responsibility for developmental test and evaluation, other than the
provision of advice to officials responsible for such testing.”



                                     73
Audit Response. Although the audit team’s review of the regulations did not
indicate a requirement to obtain waivers for developmental test and evaluation,
Air Force Instruction 99-101 requires that any approved waivers to developmental
testing procedures or requirements be documented in the TEMP. We neither
indicated in the draft report a requirement for the Military Departments to obtain
waivers from developmental test and evaluation nor did DOT&E indicate that it
had responsibility for developmental test and evaluation.

Waiver Equivalents. The Director stated that the report alleges the existence of
“waiver equivalents” called “test limitations” and “[test] deferrals.” Further, he
stated that those waiver equivalents are not the same as a waiver. The Director
stated that the report’s language generates confusion about what a waiver is and
when it is required. He stated that the Air Force rarely applies outright for test
waivers, but instead identifies test limitations and test deferrals to DOT&E through
the test plan approval process. In addition, the Director stated that, once DOT&E
reviews and approves the test plans to include the TEMP, additional action is not
required. He stated that the Air Force follows the DoD 5000 series and Title 10,
which do not require waivers for test limitations or test deferrals. Further, the
Director stated that submission of a separate waiver request in addition to an
approved test plan is a redundant action. He also stated that test limitations are not
test waivers, but are constraints to an ideal test strategy or plan imposed by
circumstances largely beyond everyone’s control. The Director stated that test
limitations are documented in test plans and TEMPs, along with ways to mitigate
the impacts and still produce acceptable evaluations. In addition, he stated that test
deferrals are not test waivers, but are agreements that certain parts of a test and
evaluation program may be delayed until a later point in system development. The
Director also stated that test deferrals are based on trade-off decisions mutually
acceptable to developers, testers, and users, and are documented in test plans and
TEMPs.

Audit Response. To establish the definition of waivers, we contacted DOT&E to
determine what the Director meant when he expressed concern about programs
beginning operational testing without completing sufficient developmental test and
evaluation and about the Navy’s use of test waivers. DOT&E defined a waiver as
a deferral of a testing requirement, which does not eliminate the requirements from
testing. In addition, Air Force Manual 63-119 states that “Waived items must be
tested in subsequent operational test and evaluation or the ORD must be changed.”
Therefore, a waiver defers testing to future periods. Test deferrals and limitations
caused by inadequate system capabilities also defer testing to future periods.
Further, in the Director’s comment, he stated that instead of applying for waivers,
the Air Force identifies test limitations and test deferrals. Accordingly, the
Air Force is identifying test limitations and test deferrals in TEMPs instead of
processing test waivers to accomplish the same objective; that is, deferring
required testing until later in the system acquisition process.

Resolution of COIs. The Director stated that no requirement exists to resolve all
COIs before proceeding into full-rate production or deployment for
software-intensive systems. He stated that COIs are tester-developed
requirements, not operational requirements, and that some COIs such as
operational suitability require a much greater amount of testing so that the


                                     74
operational requirement may not be satisfied until later. The Director further
stated that the reformed acquisition environment allows the milestone decision
authority to use trade-off analysis to defer the closure of COIs when it makes good
sense for the program.

Audit Response. Although deficiencies affecting the resolution of COIs do not
need to be fixed and verified before the full-rate production decision, DoD
Instruction 5000.2 requires that deficiencies encountered in testing before the
LRIP decision be resolved before the system proceeds beyond LRIP at the full-rate
production decision review, and that any fixes be verified during follow-on
operational test and evaluation. In reference to tester developed COIs, we
determined that testers use the ORD in developing the COIs. While all ORD
requirements are not COIs, a correlation exists between the COIs that the testers
develop and the operational requirements. To implement the testing requirement
in DoD Instruction 5000.2, Air Force Operational Test and Evaluation Center
Manual 99-102 states that, if every COI is resolved favorably, the system should
be operationally effective and operationally suitable when employed in its intended
environment by typical users. Air Force Instruction 99-102 states that initial
operational test and evaluation will be planned to completely and unambiguously
answer all COIs as thoroughly as possible, and will not defer testing into follow-on
operational test and evaluation unless unavoidable. Air Force Instruction 99-102
also states that follow-on operational test and evaluation will not be intentionally
used as a backup for incomplete or poorly planned initial operational test and
evaluation.

Test Responsibilities. The Director stated that the fact that some COIs are not
resolved before full-rate production or deployment is not caused solely by the
testers, but is the final responsibility of the materiel developer and the milestone
decision authority. He stated that the tester’s job is to provide information to the
developer and the milestone decision authority within the constraints of the
acquisition and the test and evaluation strategies. The Director also stated that,
based on the COIs that were resolved and not resolved, the milestone decision
authority makes the final decision to proceed into production, and not the testers.

Audit Response. We agree, as stated in the report, that the testers’ inability to
resolve COIs during initial operational test and evaluation was caused, to a large
extent, by the Military Departments approving waivers or waiver equivalents. The
term Military Departments includes program managers, testers, milestone decision
authorities, and users. We also agree that it is within the milestone decision
authority’s prerogative to make the decision to proceed into production when all
COIs are not resolved. The milestone decision authority, however should be
informed of the effects of unresolved COIs on system performance so that an
objective decision can be made.

Missing Data. The Director stated that Appendix C, “Test and Evaluation
Policy,” was missing along with pages 15 through 27. Further, he stated that
DOT&E is not qualified to speak for the Military Departments regarding their test
and evaluation policies. The Director also stated that we should have come to the
Military Department testers to complete this section of the report.



                                      75
Audit Response. The Director’s comment addressed the informal staffing of the
discussion draft version of this report and not the draft report.

DOT&E is qualified to speak for the Military Departments on their
implementation of DoD test and evaluation policies. The DOT&E is empowered
by statute and by authority of the Secretary of Defense to prescribe policies and
procedures for the conduct of operational test and evaluation in the DoD.

DOT&E Guidance. The Director expressed difficulty with the DOT&E
memorandum, “DOT&E Goals,” August 3, 2001, and its attachment. He stated
that DOT&E did not address the memorandum to the Military Departments, but
only to the “DOT&E Staff,” and that DOT&E did not coordinate the memorandum
with the Military Departments before publication. He stated that the memorandum
included a few sentences about test waivers with which he fundamentally
disagreed, such as, “There will be no waivers, or deferrals, to the completeness of
evaluations. Requirements waived should be considered failed unless changed.”
The Director stated that, if a testing requirement is deferred because a support
asset was not available during test, this does not mean the system “failed” to meet
the requirement. He further stated that those statements are too extreme and run
counter to the spirit of streamlined acquisition in the current DoD 5000-series and
the Chairman of the Joint Chiefs of Staff Instruction 3170.01B, “Requirements
Generation System,” April 15, 2001.

Audit Response. In the DOT&E memorandum, the DOT&E stated that he was in
the process of communicating the major points of the memorandum to the
Commanders of the Operational Test Agencies and was encouraging them to share
the guidance with their staffs so that everyone involved would have the same
understanding of the guidance. Concerning the testing deferral, if testing for a
requirement is deferred because a support asset was not available during test, that
requirement cannot be fully evaluated until the support asset is available;
therefore, the completeness of evaluations is affected. Further, DoD
Instruction 5000.2 requires that deficiencies encountered in testing before the
LRIP decision be resolved before the system proceeds beyond LRIP at the full-rate
production decision review, and that any fixes be verified during follow-on
operational test and evaluation.

F-15 Tactical Electronic Warfare System. Concerning the F-15 Tactical
Electronic Warfare System, the Director stated that the report did not mention that
DOT&E approved the Band 1.5 TEMP and operational test and evaluation plan,
both of which addressed the false alarm rate and future testing. Further, he stated
that the report did not mention that the Air Force submitted plans to DOT&E
showing that it planned to remedy the false alarm rate problems in the next
increment, which was the Band 5.0 increment.

Audit Response. We revised the report as suggested. However, the point of the
report is that COIs, which need to be demonstrated to prove that the system can
perform its intended mission, were not resolved before the full-rate production
decision, thereby the milestone decision authority allowed the system to continue
into production creating the potential need for costly retrofit of fielded units and an
initial operational performance that may be less than required to defeat the
expected threat.

                                      76
Joint Direct Attack Munition. The Director stated that the Joint Programmable
Fuse System Program Office, not the Joint Direct Attack Munition System
Program Office, is responsible for finding solutions to the interoperability problem
identified in the report. Further, he stated that the follow-on operational test and
evaluation is a normal followup to the initial operational test and evaluation
regardless of whether the testers included the Joint Programmable Fuse in the
initial operational test and evaluation. The Director also stated that the testers did
not plan for the follow-on operational test and evaluation mainly because the Joint
Programmable Fuse was not available.

Audit Response. The Director addressed information contained in the discussion
draft version of this report and not the draft report. Based on Air Force comments
to the discussion draft, we determined that the Joint Direct Attack Munition did
not have deficiencies that affected the resolution of COIs before the milestone
decision authority made the full-rate production decision.

Definition of a Test Waiver. The Director stated that the report contains the
DOT&E definition of a test waiver. Further, he stated that the personnel from the
Air Force Operational Test and Evaluation Center searched Title 10, past versions
of the DoD 5000 series directives, the current OSD acquisition interim directives
and guidance, and the current draft DoD 5000 series directives for the DOT&E
definition of a test waiver. The Director also stated that his office cannot find the
definition, policy, or guidance on waivers in those documents. In addition, he
stated that personnel from the Air Force Operational Test and Evaluation Center
recommend that, if DOT&E desires to establish a policy not allowing the waiver or
deferral of testing operational requirements, it needs to document such policy in
the current draft version of the DoD 5000 series directives.

Audit Response. See the response to the “Test Waivers, Limitations, and
Deferrals” issue on page 70.

Appendix A, “Scope and Methodology.” The Director stated that the report does
not identify the IG DoD team’s conclusion in determining the role of the Institute
for Defense Analyses in the test and evaluation waiver process. Further, he stated
that personnel at the Air Force Operational Test and Evaluation Center believe that
the Institute for Defense Analyses has no role in the process and that it is a support
contractor to DOT&E.

Audit Response. In the “Scope and Methodology” section of the report, we stated
that during the audit we determined the role of the Institute for Defense Analysis in
the test and evaluation waiver process. As the Director commented, the Institute
for Defense Analyses does not have a role in the test and evaluation waiver process
other than as a support contractor to DOT&E.




                                      77
Management Comments on Finding A and Audit Response
    The Director commented on management flexibility, resolution of COIs during
    initial operational test and evaluation, table of COIs not fully resolved,
    evolutionary development, test waiver decisions, Predator operational
    effectiveness issues, F-15 Tactical Electronic Warfare System test plans, Joint
    Direct Attack Munition issues, and DoD policy.

    Management Flexibility. The Director stated that a key qualification overlooked
    in the report paragraph “Air Force Policy,” and the rest of the report, was the
    words, “unless unavoidable.” Further, he stated that those words allow for
    unforeseen circumstances in development programs and test and evaluation
    strategies that would do great harm to programs if no management flexibility were
    allowed. The Director stated that, in some instances, the deferral of a test
    requirement or the completion of a COI is better than severely penalizing the
    program with cost and schedule effects resulting from a less than perfect
    development or test and evaluation program. He also stated that this qualification
    allows program managers, testers, and users to make reasonable trade-offs in the
    best interests of warfighters, according to the DoD 5000 series’ new streamlined
    acquisition principles.

    Audit Response. See the response to the “Resolution of COIs” issue to the
    Air Force on page 75. We agree that the milestone decision authorities have the
    prerogative to allow weapon systems that were not fully ready for production to
    continue into production when COIs for weapon systems are not fully resolved
    during initial operational test and evaluation. However, this action creates a
    potential need for costly retrofit of fielded units later and an initial operational
    performance that may be less than is required to defeat the expected threat.

    Resolution of COIs During Initial Operational Test and Evaluation. The
    Director stated that, occasionally, some COIs in initial operational test and
    evaluation cannot be resolved before full-rate production or deployment because of
    the ORD requirement or test limitations, or both. Further, he stated that a
    suitability requirement for a 1,000-hour mean time between failure for an aircraft
    system may require up to 5,000 flying hours in some instances. The Director
    stated that to require a system to log 5,000 flying hours before making a full-rate
    production or deployment decision may not be possible or good program
    management. He also stated that other tools, such as reliability growth curves, can
    reduce risk and help make good projections when those kinds of test limitations
    occur. The Director reiterated his statement that the draft report confuses test
    waivers with test limitations and test deferrals.

    Audit Response. Although COIs may not be fully demonstrated before the
    full-rate production, DoD Instruction 5000.2 requires that deficiencies
    encountered in testing before the LRIP decision be resolved before proceeding
    into full-rate production and any fixes verified in follow-on test and evaluation. In
    the report, we addressed deficiencies (test waivers) that affected the resolution of
    COIs and that were encountered before initial operational test and evaluation that
    were not resolved before the milestone decision authority made the full-rate
    production decision. Deficiencies encountered during initial operational test and

                                          78
evaluation are considered an acceptable part of the initial operational test and
evaluation process and, therefore, were not addressed in this report. In reference
to the definitions of test waivers, test limitations, and test deferrals, we explained
the rational used by DOT&E for considering test limitations and deferrals as the
equivalent to test waivers in the Background section of the report.

Table of COIs Not Fully Resolved. The Director stated that the table, “COIs Not
Fully Resolved Because of Approved Test Waivers of Test Limitations for the
Eight Defense Systems Affected,” was not balanced because it focused almost
solely on suitability COIs. He reiterated his comments on the resolution of COIs
during initial operational test and evaluation. The Director also stated that
evolutionary acquisition strategies recognize that test limitations for COIs may
require deferral of a final answer to resolve the requirement or the COI until a later
date.
Audit Response. The table addresses deficiencies that affected the resolution of
COIs that were encountered before initial operational test and evaluation but were
not resolved before the milestone decision authority made the full-rate production
decision. With regard to the suitability COIs, the predominate COIs not resolved
for the eight programs reviewed were suitability issues. Concerning evolutionary
acquisition, we disagree that evolutionary acquisition strategies recognize that
COIs for each block of the acquisition may require deferral of a final answer to
resolve the COI until a later date. The operational testers are to establish COIs
only for each block for performance capabilities that need to be demonstrated
during that block development.

Evolutionary Development. The Director stated that the draft report states that
the Joint Requirements Oversight Council deferred some test requirements for the
Patriot Advance Capability-3 program as part of an evolutionary development
program. He stated that this deferral was a good example of how evolutionary
acquisition works to ensure earlier delivery of capabilities to warfighters. Further,
the Deputy stated that evolutionary acquisition is the “preferred acquisition
strategy” in DoD. He also stated that we were not justified in criticizing the
Patriot Advance Capability-3 program for deferring a requirement after careful
deliberation with the JROC and deploying much-needed capabilities to protect our
warfighters.

Audit Response. The draft report does not debate the Joint Requirements
Oversight Council process or how fast capabilities are delivered to the warfighters.
The point of the report is that COIs, which are required for a system to perform its
mission, were not resolved before full-rate production, thereby allowing the system
to continue into production and creating the potential need for costly retrofit of
fielded units and an initial operational performance that may be less than required
to defeat the expected threat. As discussed above, the Patriot Advanced
Capability-3 program is not a good example of how an evolutionary acquisition
works because COIs that were established for a specific block of the acquisition
strategy were not resolved before the production decision.

Test Waiver Decisions. The Director stated that the report’s discussion of the
nine COI categories affected by test waivers and limitations and examples of the
affected COIs from the eight programs affected focused on relatively minor

                                      79
problems that did not warrant delaying the full-rate production or deployment
decisions. Further, he stated that perfect development programs and test and
evaluation programs did not exist and that waiting for every problem to be
resolved, no matter how small, before full-rate production or deployment would
result in no systems being deployed, or at best would add totally unacceptable cost
and delay to programs. The Director also stated that the decision to waive test
requirements or defer some tests is a mutual agreement among the testers, materiel
developers, and users based on program and technical risk weighed against the risk
of not deploying new capabilities to our warfighters. He stated that sometimes
“better” is the worst enemy of “good enough.”

Audit Response. The Office of the DOT&E provided the list of programs that
were issued waivers that we used for the audit. As stated in the report, we
conducted the audit based on the DOT&E “Operational Test and Evaluation
Annual Report, FY 2000,” in which the Director expressed concern about
programs beginning operational testing without completing sufficient
developmental test and evaluation and about the Navy’s use of test waivers. The
Defense Science Board also expressed similar concerns in the “Defense Science
Board Task Force on Test and Evaluation Capabilities,” December 2000. Systems
provided to the warfighter should be operationally effective and suitable. The
report addresses test waivers that affected the resolution of COIs before the initial
operational test and evaluation and that were not resolved before the milestone
decision authority made the full-rate production decision. When a system enters
initial operational test and evaluation with known deficiencies, those deficiencies
should be resolved before entering full-rate production. If those deficiencies are
not resolved before full-rate production, especially deficiencies effecting COIs
required for a system to perform its mission, the system continues into production
and thereby creates the potential need for costly retrofit of fielded units, and initial
operational performance from the system that may be less than required to defeat
the expected threat.

Predator Operational Effectiveness Issues. The Director stated that the report
criticizes the Predator Unmanned Aerial Vehicle program for not achieving its full
potential before full-rate production and deployment. Further, he stated that the
program was intended as a fast-track program from the start and follows the
evolutionary acquisition model in the new DoD 5000 series. He also stated that
we were not justified in criticizing the Predator solely on technical and testing
grounds because the Predator delivered new capabilities to warfighters earlier just
as the new DoD 5000-series envisions. Further, the Director stated that DOT&E
criticism of the Predator has little credibility because top-level combatant
commanders had the highest praises for the Predator despite its drawbacks. The
Director noted that latest draft DOT&E Annual Report to Congress withdrew last
year’s conclusion that Predator was not effective and not suitable.

Audit Response. The fact remains that the Predator did not meet its COI for
effectiveness before full-rate production. The Predator experienced problems
recognizing tactical-sized targets, as required as a critical mission function, and
has continued into production and created the potential need for costly retrofit of
fielded units to meet its critical mission requirements. However, if recognizing
tactical-sized targets is not a COI, the cost for this additional requirement should
be avoided.

                                       80
F-15 Tactical Electronic Warfare System Test Plans. The Director stated that
the report criticizes the test plans for the F-15 Tactical Electronic Warfare System
for not showing test limitations for an excessive built-in-test false alarm rate.
Further, he stated that DOT&E knew about the deficiency; therefore, no waivers
were requested or submitted. The Director also stated that DOT&E approved the
test plans as submitted without commenting on the lack of test limitations. In
addition, he stated that test plan approval covered the test limitations and test
deferrals. Further, the Director stated that DOT&E knew that the Air Force would
attempt to correct the deficiency in the next incremental release, which is how
evolutionary acquisition is supposed to work.

Audit Response. We agree that DOT&E was aware of the excessive built-in-test
false alarm rate, as stated in the report. However, this awareness does not alleviate
the requirement for the system to meet the operational requirements and COIs for
that block of the evolutionary acquisition. Because the deficiency was identified
before that the system entered initial operational test and evaluation, the program
office should have resolved the deficiency before the system entered full-rate
production for that block. The objective of the evolutionary acquisition strategy is
not to deliver a substandard system to the warfighter, but, as DoD
Instruction 5000.2 states, the objective is to balance needs and available capability
with resources, and to put capability into the hands of the user quickly.

Joint Direct Attack Munition Issues. The Director had multiple comments
concerning the Joint Direct Attack Munition. Specifically,

       •   Headquarters, Air Force Test and Evaluation did not require approval
           of waivers or test deferrals of any kind for this program. While the
           Air Force recognized that some tests were deferred, Headquarters,
           Air Force Test and Evaluation kept close watch on those matters when
           reviewing operational test and evaluation plans before submission to
           DOT&E.

       •   The Air Force Operational Test and Evaluation Center decertified the
           Joint Programmable Fuse for operational test and evaluation, not the
           Joint Direct Attack Munition. This test limitation was outside the
           control of the Joint Direct Attack Munition Program Manager and
           should not have held the Joint Direct Attack Munition program hostage.
           Other fuses were available that afforded adequate capabilities to
           demonstrate the Joint Direct Attack Munition. Fuse delays were only a
           small part of the total weapons effects equation, so the total effect on
           warfighters of not having the Joint Programmable Fuse was minimal.

       •   The Joint Direct Attack Munition re-targeting capabilities were not
           affected by lack of Joint Programmable Fuse. Re-targeting was a
           capability inherent in the Joint Direct Attack Munition and not
           dependant on the fuse. The only problem is if the Joint Direct Attack
           Munition were retargeted in flight, the fuse setting may not always be
           precisely compatible with the new target. For troops in contact, who
           need ordnance right away, this criticism does not pass the “so what”
           test.


                                     81
    Audit Response. The Director addressed information contained in the discussion
    draft version of this report and not the draft report. Based on Air Force comments
    to the discussion draft, we determined that the Joint Direct Attack Munition did
    not have deficiencies that affected the resolution of COIs before the milestone
    decision authority made the full-rate production decision.

    DoD Policy. The Director states that the report cites the DOT&E Memorandum,
    August 3, 2001, as the DoD-level policy for directing the operational test agencies
    in the Military Departments to not use waivers or deferrals that prevent a complete
    evaluation of operational requirements. Further, he stated that personnel at the
    Air Force Operational Test and Evaluation Center do not consider this memo as
    policy, but rather guidance to DOT&E staff to implement the goal and objective of
    “rigorous and robust testing that is adequate.” The Deputy also stated that this
    same guidance was provided as a courtesy to the Commander, Air Force
    Operational Test and Evaluation Center in a subsequent letter, August 7, 2001. In
    addition, he stated that DOT&E policy is officially promulgated through DOT&E
    policy letters and that the Air Force Operational Test and Evaluation Center
    immediately implements these policy letters upon receipt through updates to
    Air Force Operational Test and Evaluation Center directives.

    Audit Response. See the response to the “DOT&E Memorandum” issue on
    page 69.

Management Comments on Finding B and Audit Response
    The Director commented on DOT&E guidance; Air Force test policy; test
    limitations in test plans; revision of Air Force instructions; Air Force
    Instruction 99-102; testing of waived test requirements; source of information;
    waivers for developmental testing; inconsistent waiver policy; changes to DoD
    draft policy; Air Force nonconcurrence with DOT&E policy; waiver policies and
    procedures; and Air Force procedures, “Test and Evaluation Waivers.”

    DOT&E Guidance. The Director stated that DOT&E did not issue its August 3,
    2001, guidance to the Air Force, and the Air Force was not afforded a chance to
    coordinate on the guidance.

    Audit Response. See the response to the “DOT&E Guidance” issue on page 76.

    Air Force Test Policy. The Director did not agree that “Air Force procedures
    require the processing of waivers to defer specific operational test requirements to
    the future.” He stated that, while Air Force test policies do address waivers, those
    policies are not so specific. The Director stated that the Air Force addresses test
    limitations and test deferrals through the test plan approval process. He also stated
    that, during this process, the Air Force’s intention is that Air Force
    Manual 63-119, paragraph 4.2.7, be followed: “Approval of a waiver does not
    eliminate or alter the requirement for OT&E [operational test and evaluation].
    Waived items must be tested in subsequent OT&E or the ORD must be changed.”
    In addition, the Director stated that the Air Force accomplishes the same goal in
    the end.


                                         82
Audit Response. The Director’s comment addressed information in the discussion
draft version of this report and not the draft report. The draft report correctly
stated the Air Force waiver procedures.

Test Limitations in Test Plans. The Director stated that the Air Force has no
Headquarters, Air Force-level policies addressing procedures for the program
managers to use test limitations in test plans to defer specific operational test
requirements to the future. Further, he stated that he did not know of any major
command policies in this area either.

Audit Response. The Director’s comments addressed information in the
discussion draft version of this report and not the draft report. In the draft report,
we revised the report as stated in our response to the “Air Force Test Policy” issue
on page 82. Concerning Air Force policy, Air Force Manual 63-119 requires that
the description of operational test and evaluation test limitations that may affect
the full-rate production decision be placed in the TEMP. The Air Force use of test
limitations to defer testing has the same effect as a test waiver.

Revision of Air Force Instructions. The Director stated that Air Force test and
evaluation policies are under revision. A new Air Force Instruction 99-103,
“Air Force Test and Evaluation,” is already in a mature stage of development and
will address this area.

Audit Response. In issuing Air Force Instruction 99-103, the Air Force needs to
ensure that the new instruction is consistent and compliant with DOT&E guidance
on test waivers and deferrals.

Air Force Instruction 99-102. The Director stated that the Air Force has not
published or is not aware of a January 20, 2000, version of Air Force
Instruction 99-102. He asked whether this instruction could be Air Force
Operational Test and Evaluation Center Instruction 99-102. The Deputy stated
that his office did not approve Air Force Operational Test and Evaluation Center
Instruction 99-102 before publication and did not review it in conjunction with his
office’s review of the draft of this report.

Audit Response. The Director’s comments addressed information in the
discussion draft version of this report and not the draft report. The draft report
cited Air Force Operational Test and Evaluation Center Instruction 99-102,
“Operational Test and Evaluation,” January 20, 2000.

Testing of Waived Test Requirements. The Director stated that Air Force
Manual 63-119, not Air Force Instruction 99-102, requires Air Force program
managers to “list any required waivers or areas excluded from OT&E [operational
test and evaluation]” during the certification process and in the certification
message. Further, he stated that the Manual states that “approval of a waiver does
not eliminate or alter the requirement for OT&E. Waived items must be tested in
subsequent OT&E or the ORD must be changed.”

Audit Response. The Director’s comments addressed information in the
discussion draft version of this report and not the draft report. The draft report
referenced Air Force Manual 63-119 concerning testing of waiver requirements.

                                      83
Source of Information. The Director stated that his staff could not locate the
following statement in Air Force instructions: “identify test limitations in test plans
to defer the demonstration of specific operational test requirements.” He asked
whether this statement could be in Air Force Operational Test and Evaluation
Center Instruction 99-102.

Audit Response. The Director’s comments addressed information in the
discussion draft version of this report and not the draft report. The draft report
states that “The Air Force procedures require program managers to process
waivers to defer specific operational test requirements and identify test limitations
in test plans.” This statement paraphrases information in Air Force
Manual 63-119.

Waivers for Developmental Testing. The Director stated that, although
Air Force Manual 63-119 uses the term “waiver,” Headquarters, Air Force Test
and Evaluation does not require the Air Force Operational Test and Evaluation
Center to submit formal paperwork for “acceptance” of an operational test and
evaluation with test limitations or “waivers.” Further, he stated that his office does
not require waivers for missing developmental test and evaluation areas. The
Director stated that his office leaves that decision between the Air Force
Operational Test and Evaluation Center commander and the program’s certifying
official, who is usually the program executive officer. He also stated that the
Air Force Operational Test and Evaluation Center commander makes the final
decision, but must still have his test plan coordinated through Headquarters,
Air Force Test and Evaluation and approved by DOT&E before starting the
operational test and evaluation.

Audit Response. The Director’s comments addressed information in the
discussion draft version of this report and not the draft report. The draft report
states that Air Force Manual 63-119 requires a waived requirement to be tested in
subsequent operational test and evaluations or the user must change the ORD
requirement. The draft report also states that the Manual requires the system
program manager, before initial operational test and evaluation, to:

       •   list any required waivers or areas excluded from the test and evaluation,
           the rationale, and future plans to clear the waivers, and

       •   provide a summary of the list to the operational tester.

In response, the operational tester is to indicate whether to proceed with the test
and is to discuss the effects of test limitations and test waivers on resolving
operational test issues in the test report.

Inconsistent Waiver Policy. The Director stated that he agreed with the
conclusion that the Military Departments do not have consistent policies,
procedures, or terminology for test waivers and limitations.

Changes to DoD Draft Policy. The Director stated that the report incorrectly
states that the 120-day interim guidance requires that deficiencies encountered in
testing before the LRIP decision be resolved before the system can proceed
beyond LRIP, and that any fixes to those deficiencies be verified during initial

                                      84
operational test and evaluation. He stated that the words “initial operational test
and evaluation” should read “follow-on operational test and evaluation” as stated
in the latest draft version of the DoD Instruction 5000.2, paragraph 3.7.6, which
was pending signature. The Director stated that the change is very significant.

Audit Response. The Director’s comments addressed information in the
discussion draft version of this report and not the draft report. The draft report
states that the 120-day interim guidance requires that any fixes to those
deficiencies be verified during follow-on operational test and evaluation.

Air Force Nonconcurrence with DOT&E Policy. The Director stated that the
Air Force did not review or coordinate on the August 3, 2001, DOT&E
memorandum and would have nonconcurred with the guidance on waivers and
requirements. Further, he stated that he and his office do not know what guidance
the other Military Departments received from DOT&E. The Director is unsure
whether DOT&E disseminated the August 3, 2001, memorandum to the test and
evaluation communities in the Military Departments.

Audit Response. See the response to the “DOT&E Memorandum” issue on
page 69.

Waiver Policies and Procedures. The Director stated that the Air Force
Operational Test and Evaluation Center did not have a policy to waive or defer
operational test requirements. Further, he stated that the Commander, Air Force
Operational Test and Evaluation Center supports the DOT&E goal of rigorous,
robust, and adequate testing without waivers or deferrals by implementing the
policy outlined in Air Force Operational Test and Evaluation Center
Instruction 99-103. The Director also stated that the Commander, Air Force
Operational Test and Evaluation Center will not accept certification of system
readiness for operational test and evaluation until the developer can demonstrate
stabilized performance under an operational (stressed) environment with a
production representative article. In addition, the Director stated that test teams at
the Air Force Operational Test and Evaluation Center are aware of requirements in
Air Force Manual 63-119, “Certification of System Readiness for Dedicated
Operational Test and Evaluation,” that are critical to ensuring, in collaboration
with the applicable system program office, that the system can be certified ready
for operational test and evaluation.

Audit Response. See the response to the “DOT&E Memorandum” issue on
page 69.

Air Force Procedures, Test and Evaluation Waivers. The Director stated that
the report refers to Air Force Instruction 99-102, “Operational Test and
Evaluation,” when defining the Air Force’s policy on test and evaluation waivers.
Further, he stated that the report quotes Air Force Instruction 99-102,
paragraph 2.5, and that personnel at the Air Force Operational Test and
Evaluation Center believe that the report incorrectly interprets that paragraph.
The Director also stated that personnel at the Air Force Operational Test and
Evaluation Center refer to this paragraph when submitting a waiver to the
requirement for operational test and evaluation and not to waive or defer testing of
operational requirements. In addition, he stated that the report incorrectly states

                                      85
that the system program manager is the individual that submits waivers under
Air Force Instruction 99-102, paragraph 2.5. Further, the Director stated that
program management at the Air Force Operational Test and Evaluation Center
submits the waiver request, with user and developer concurrence, to the Air Force
Test and Evaluation Directorate.

Audit Response. Air Force Instruction 99-102, paragraph 2.5, “Requests to
Modify the Provisions for OT&E [Operational Test and Evaluation],” states that:
           Requests to modify (waive) the fundamental provisions of this AFI
           [Air Force Instruction] for any OT&E must be submitted in writing,
           with user and developer concurrence, through AFOTEC/CV [Air Force
           Operational Test and Evaluation Center/CV] to HQ USAF/TE
           [Headquarters, Air Force Test and Evaluation]. The SM [system
           manager] will document any approved OT&E “waivers” in the TEMP,
           and the system’s program element monitor (PEM) will document OT&E
           “waivers” in the PMD [program management directive].

Based on the Director’s comments, we revised the paragraph to state that the
Air Force Operational Test and Evaluation Center instead of the system program
manager prepares a request to waive or modify fundamental provisions for
operational test and evaluation. With user and developer concurrence, the
Air Force Operational Test and Evaluation Center submits the request to the
Air Force Test and Evaluation Directorate.




                                      86
Appendix J. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director for Acquisition Initiatives
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Deputy Under Secretary of the Army (Operations Research)
Auditor General, Department of the Army
Commander, Army Test and Evaluation Command

Department of the Navy
Chief of Naval Operations
  Director, Navy Test and Evaluation and Technology Requirements
Commandant of the Marine Corps
  Aviation Department
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Operational Test and Evaluation Force

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director, Air Force Test and Evaluation
Commander, Air Force Operational Test and Evaluation Center

Non-Defense Federal Organization
Office of Management and Budget




                                          87
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        88
___________________________________________________________________



Director, Operational Test and Evaluation
Comments




                             89
               ___________________________________________________________________




Final Report
 Reference




Revised
Page 1




Revised
Page 48




                                            90
___________________________________________________________________



Department of the Army Comments




                             91
               ___________________________________________________________________




Final Report
 Reference




Revised
Page 19




Page 5




                                            92
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 8
                                                                      Page 38




                                                                      Page 8
                                                                      Page 38




                                                                      Page 5
                                                                      Page 35




                                                                      Page 6
                                                                      Pages 38
                                                                      through 39




                             93
               ___________________________________________________________________




Final Report
 Reference




Page 6
Page 38




Page 39




                                            94
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Revised
                                                                      Page 40
                                                                      Page 10
                                                                      Page 40




                             95
___________________________________________________________________



Department of the Navy Comments




                             96
___________________________________________________________________




                Deliberative process privilege data omitted.




                                97
___________________________________________________________________




                Deliberative process privilege data omitted.




                                98
___________________________________________________________________




                Deliberative process privilege data omitted.




                                99
___________________________________________________________________




                Deliberative process privilege data omitted.




                                100
___________________________________________________________________




                Deliberative process privilege data omitted.




                                101
___________________________________________________________________




                Deliberative process privilege data omitted.




                                102
___________________________________________________________________




                Deliberative process privilege data omitted.




                                103
___________________________________________________________________




                Deliberative process privilege data omitted.




                                104
___________________________________________________________________




                Deliberative process privilege data omitted.




                                105
___________________________________________________________________




                Deliberative process privilege data omitted.




                                106
___________________________________________________________________




                Deliberative process privilege data omitted.




                                107
___________________________________________________________________




                Deliberative process privilege data omitted.




                                108
___________________________________________________________________




                Deliberative process privilege data omitted.




                                109
___________________________________________________________________




                Deliberative process privilege data omitted.




                                110
___________________________________________________________________



Department of the Air Force Comments
                                                                      Final Report
                                                                       Reference




                                                                      Pages 24
                                                                      through 34

                                                                      Deleted




                             111
___________________________________________________________________




                             112
___________________________________________________________________




                             113
___________________________________________________________________




                             114
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 1




                                                                      Page 1


                                                                      Pages 1
                                                                      through 2




                             115
               ___________________________________________________________________




Final Report
 Reference




Revised
Page 3




Page 3


Page 3




Page 4




                                            116
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 4




                                                                      Page 5




                                                                      Revised
                                                                      Page 6


                                                                      Pages 6
                                                                      through 11




                                                                      Page 7




                             117
               ___________________________________________________________________




Final Report
 Reference




Page 8




Deleted




Page 12


Page 14




Page 17


Page 17




                                            118
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Revised
                                                                      Page 19




                                                                      Pages 19
                                                                      through 20
                                                                      Revised
                                                                      Page 20


                                                                      Page 20


                                                                      Revised
                                                                      Page 21



                                                                      Pages 24
                                                                      through 35
                                                                      Page 48




                             119
               ___________________________________________________________________




Final Report
 Reference




Deleted




                                            120
___________________________________________________________________




                             121
               ___________________________________________________________________




Final Report
 Reference




Page 3




Page 17




Revised
Page 19




Page 30




                                            122
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 24




                             123
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

       Mary L. Ugone
       John E. Meling
       Jack D. Snider
       Neal J. Gause
       Alice F. Carey
       Tracey E. Dismukes
       Jacqueline N. Pugh
